<html>
<title> - OVERSIGHT HEARING TO EXAMINE THE IMPACT OF EPA REGULATION ON AGRICULTURE</title>
<body><pre>[Senate Hearing 111-1028]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1028
 
                      OVERSIGHT HEARING TO EXAMINE
              THE IMPACT OF EPA REGULATION ON AGRICULTURE

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 23, 2010

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
66-276                  WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                 BLANCHE L. LINCOLN, Arkansas, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES GRASSLEY, Iowa
ROBERT CASEY, Jr., Pennsylvania      JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
MICHAEL BENNET, Colorado
KIRSTEN GILLIBRAND, New York

               Robert Holifield, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Oversight Hearing to Examine the Impact of EPA Regulation on 
  Agriculture....................................................     1

                              ----------                              

                     Wednesday, September 23, 2010
                    STATEMENTS PRESENTED BY SENATORS

Lincoln, Hon. Blanche L., U.S. Senator from the State of 
  Arkansas, Chairman, Committee on Agriculture, Nutrition and 
  Forestry.......................................................     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     5

                                Panel I

Jackson, Hon. Lisa P., Administrator, U.S. Environmental 
  Protection Agency, Washington, DC..............................     8

                                Panel II

Hillman, Rich, Vice President, Arkansas Farm Bureau, Carlisle, 
  Arkansas.......................................................    31
Vroom, Jay, President and Chief Executive Officer, Croplife 
  America, Washington, DC........................................    32
White, Jere, Executive Director, Kansas Corn Growers Association, 
  Barnett, Kansas................................................    34
                              ----------                              

                                APPENDIX

Prepared Statements:
    Grassley, Hon. Chuck.........................................    46
    Hillman, Rich................................................    47
    Jackson, Hon. Lisa P.........................................    54
    Vroom, Jay...................................................    66
    White, Jere..................................................    75
Document(s) Submitted for the Record:
    Holiday Shores Subpoena......................................    82
Question and Answer:
Lincoln, Hon. Blanche L.:
    Written questions to Hon. Lisa P. Jackson....................    92
Chambliss, Hon. Saxby:
    Written questions to Hon. Lisa P. Jackson....................    94
Gillibrand, Hon. Kirsten:
    Written questions to Hon. Lisa P. Jackson....................    99
Grassley, Hon. Charles E.:
    Written questions to Hon. Lisa P. Jackson....................   104
Johanns, Hon. Mike:
    Written questions to Hon. Lisa P. Jackson....................   102
McConnell, Hon. Mitch:
    Written questions to Hon. Lisa P. Jackson....................   100
Nelson, Hon. E. Benjamin:
    Written questions to Hon. Lisa P. Jackson....................    95
Roberts, Hon. Pat:
    Written questions to Hon. Lisa P. Jackson....................   102
    Written questions to Jere White..............................   148
Jackson, Hon. Lisa P.:
    Written response to questions from Hon. Blanche L. Lincoln...   108
    Written response to questions from Hon. Saxby Chambliss......   114
    Written response to questions from Hon. Kirsten Gillibrand...   127
    Written response to questions from Hon. Charles E. Grassley..   141
    Written response to questions from Hon. Mike Johanns.........   137
    Written response to questions from Hon. Mitch McConnell......   130
    Written response to questions from Hon. E. Benjamin Nelson...   120
    Written response to questions from Hon. Pat Roberts..........   135
White, Jere:
    Written response to questions from Hon. Pat Roberts..........   149


                     OVERSIGHT HEARING TO EXAMINE

              THE IMPACT OF EPA REGULATION ON AGRICULTURE

                              ----------                              


                      Thursday, September 23, 2010

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:44 p.m., in 
Room SR328A, Russell Senate Office Building, Hon. Blanche 
Lincoln, Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Lincoln, 
Conrad, Stabenow, Nelson, Klobuchar, Chambliss, Roberts, 
Johanns, and Thune.

  STATEMENT OF HON. BLANCHE L. LINCOLN, U.S. SENATOR FROM THE 
    STATE OF ARKANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                     NUTRITION AND FORESTRY

    Chairman Lincoln. Good afternoon. The Senate
    Committee on Agriculture, Nutrition and Forestry will now 
come to order.
    I am pleased to hold this hearing, examining the impact of 
the Environmental Protection Agency's regulation of farmers and 
ranchers.
    As always I am delighted to be joined by my good friend and 
ranking member Senator Chambliss who I know had other things he 
has been at and may have to leave for as well but I am so proud 
that he is here today and grateful for his sharing of my 
passion and commitment for farmers, ranchers and certainly 
rural America. He serves us all well. I am glad he is here.
    Several excellent witnesses will provide testimony today, 
and I would like to first extend a special thanks to fellow 
Arkansan, Mr. Rich Hillman. To be here with us today Rich is 
missing the first day of a two-day meeting of the Board of 
Directors of the Arkansas Farm Bureau.
    So, Rich, I appreciate you for being here.
    We will also hear from Mr. Jay Vroom, who is the President 
and Chief Executive Officer of Croplife America; and, of 
course, Mr. Jere White, who is Executive Director of the Kansas 
Corn Growers Association.
    Finally, a very special thanks to you, Administrator Lisa 
Jackson, from the Environmental Protection Agency for coming 
before us and appearing before the Committee today.
    Administrator Jackson, I know you and your team have been 
extremely busy in these last several months as we mentioned 
back here, responding to this spill in the Gulf of Mexico. We 
appreciate that, and we appreciate you making time to be with 
us today.
    As a farmer's daughter I learned first-hand from farmers 
and ranchers and foresters who are the best stewards of our 
land. I have never known a better conservationist than my dad 
who had a tremendous respect for the land and a great love for 
it as well.
    It provided for us with the safest, most abundant, and most 
affordable supply of food and fiber in the world, and they have 
done it for generations.
    This could not happen without the careful stewardship of 
their land. In fact, much of the conservation gains that have 
been made over the past half century have been achieved through 
voluntary, incentive-based cost sharing programs, many of which 
were developed on a bipartisan basis by members of this 
Committee both past and present. Truly remarkable improvements 
have been made in reduced soil erosion, improved water and air 
quality, and wildlife habitat restoration.
    To my point I would suggest that any of you all that might 
think about it pick up a copy of the Worst Hard Times. It is a 
story about the dust bowl days to really get a sense of where 
we have been and where we are today thanks to a collaborative 
effort between farmers, ranchers, and those who really 
understand production agriculture in Congress.
    As one who has been a part of this progress, it has been my 
experience and it is certainly my judgment that the carrot has 
time and time again proved mightier than the stick when it 
comes to advancing important conservation and environmental 
objectives on farms, ranches, and forest land.
    Unfortunately farmers and ranchers in rural Arkansas and 
all over on our Nation are increasingly frustrated and 
bewildered by vague, overreaching and unnecessarily burdensome 
EPA regulations. Farmers face so many unknowns, so many that 
many of us just take for granted. The last thing they need is 
regulatory uncertainty.
    Producers are subject to the whims of the commodity markets 
and the weather, just to name a few. A sudden shift in price or 
a wet summer can devastate a farmer and drive him out of 
business.
    In the face of these stark realities, our farmers, ranchers 
and foresters need clear, straightforward, and predictable 
rules to live by that are not burdensome, duplicative, costly, 
unnecessary or, in some cases, just plain bizarre.
    Farmers and ranchers do not have an army of environmental 
engineers, lawyers, and regulatory compliance specialist on 
their speed dial.
    I do not know but I spent a great deal of time in a pickup 
truck with my dad who had a small binder up above the visor on 
his car or his truck, and that is how he kept up. He did not 
have a computer. Many farmers still do not have computers on 
board with them in those trucks and cars to be able to figure 
out what it is that is being asked of them and try to decipher 
it on their own without a tremendous number of engineers or 
lawyers or others.
    Compliance obligations that may seem simple to a career
    bureaucrat in Washington, DC, are often complex, they are 
ambiguous, and in the end leave farmers and ranchers feeling 
tremendously uncertain and exposed to steep fines they simply 
cannot afford in this economic environment.
    I urge everyone to give thought to the following. Right now 
at a time when every American feels anxious about his or her 
own economic future and the economic future of the country, our 
farmers, ranchers, and foresters are facing at least a dozen, a 
dozen new regulatory requirements, each of which will add to 
their cost making it harder for them to compete in a world that 
is marked by stiff and usually unfair competition.
    And most, if not all, of these regulations rely on dubious 
rationales, and as a consequence, will be of questionable 
benefit to the overall goal of conservation and environmental 
protection.
    There is no question that our farmers and ranchers want to 
do what is best for the environment. They ask that you do not 
lower your expectations of them but simply give them goals that 
they can reach and still continue to produce a safe and 
affordable and abundant supply of food and fiber.
    They ask that you work together with agriculture community 
to set these common sense goals instead of using the command 
and control top down approach that this Administration has 
relied on so far.
    In a moment I will talk about two issues that are prime 
examples of this Administration's overreaching approach to 
regulation. But I would be remiss if I did not mention several 
other issues that really do concern me.
    EPA's recent proposed spray drift guidance, as I have 
indicated in a letter to the Administrator, was vague, 
unenforceable, and would have left producers uncertain about 
whether they were complying within the law when they sprayed.
    I was initially informed that EPA decided to reconsider the 
proposed spray drift guidance. Though more recently I have now 
heard that EPA plans to stick with its initial proposal. This 
troubles me because, as I stated before, the proposed standard 
is completely unworkable.
    Now as chair of the Senate Committee on Agriculture, 
Nutrition, and Forestry, I do not know what to expect or to 
understand or to encourage growers across this Nation as to 
what they can expect. You can imagine the concern and the 
confusion among our farmers and ranchers and foresters in this 
country not knowing what it is they can anticipate.
    I am also concerned about EPA's recent practice of settling 
Clean Water Act lawsuits while only allowing environmental 
groups a seat at the table. I believe, as I always have, in 
whatever issue we are dealing with all stakeholders should have 
a seat at the table when so much is on the line.
    Also the Administrator's goal of expanding the use of 
renewable energy is being undermined by EPA's proposed boiler 
MACT which would inhibit the use of biomass by subjecting new 
facilities to needlessly expensive emission controls. This 
regulation would also impose new costs on the Nation's paper 
industry which currently relies on biomass for two thirds of 
its energy.
    Then there is EPA's proposed ambient air quality standards 
for particulate matter which could lead to stringent 
regulations of dust on farms. Folks, dust is a fact of life in 
rural and agricultural areas of the United States. Trucks, 
combines, livestock, they all kick up dust during the course of 
normal farming operations. EPA must use common sense when 
setting these types of standards.
    Finally, I flat out disagree with EPA's regulation of 
greenhouse gases. Because the legal foundation for the 
tailoring is shaky at best probably, I fear that federal courts 
will order EPA to regulate small sources of greenhouse gases. 
This could mean unnecessary regulation for thousands of farms 
all around the country.
    We cannot allow this to happen, and as I have said time and 
again, it should be Congress, not unelected bureaucrats, who 
should be writing the laws to regulate greenhouse gases.
    Now, just to talk about two issues in greater detail, the 
first involves EPA's development of Clean Water Act permit 
requirements for pesticide applications.
    What is most frustrating to me about this development is 
that the pesticide applications will unnecessarily regulate 
twice, once under FIFRA and again under the Clean Water Act.
    I firmly believe that as long as a FIFRA registered product 
is applied in accordance with its label and any other 
conditions, then we should not be requiring unnecessary, 
duplicative regulatory burdens.
    The Clean Water Act requirements for pesticide applications 
have also created incredible uncertainty and concern for 
producers, especially rice producers in our State of Arkansas.
    Growers are suddenly forced to make a choice between either 
potentially seeking an expensive permit that requires onerous 
record keeping and other obligations and yet does nothing for 
the environment that FIFRA does not already do for spraying 
without a permit and be potentially subject to Clean Water Act 
citizen suits and enormous civil penalties. It is simply a 
choice that our farmers and ranchers and foresters should not 
have to make.
    For these reasons, Ranking Member Chambliss and I 
introduced S. 3735, a bill that would clarify that a Clean 
Water Act permit is not required if a pesticide is applied in 
accordance with FIFRA. It is my hope that we could find a way 
to pass this legislation as soon as possible.
    Second issue, one unique to my home State of Arkansas, and 
I appreciate the Committee bearing with me, is EPA's rush to 
establish a total maximum daily load for the Illinois River 
before the State of Oklahoma revisits its phosphorous standards 
for the river. Common sense would seem to suggest that Oklahoma 
should revisit its phosphorus standards before EPA takes 
action.
    I am also concerned by multiple reports from poultry 
farmers in the northwest part of our State indicating a lack of 
clarity regarding their obligation under the Clean Water Act. I 
cannot emphasize enough that poultry farmers are not power 
plants or large manufacturing facilities. They do not have 
lawyers and engineers on staff. They do not sit around sipping 
coffee, parsing and debating the finer points of the Clean 
Water Act or the Supreme Court jurisprudence on the meaning of 
the term ``waters of the US''. They need guidance and a clear 
set of expectations, and it is EPA's job to provide it.
    As we work to create jobs and put our economy back on 
track, I know, I hope and believe that with all of our 
objectives here working together we must give folks in rural 
America the certainty they need to be successful. Overreaching, 
burdensome regulations from the EPA create huge uncertainties 
for our farmers and ranchers and put our Nation's food supply 
at risk.
    I hope that we can use today's hearing to discuss how we 
can create a more collaborative relationship between the EPA 
and American agriculture.
    I again want to thank you all for being here. I appreciate 
Administrator Jackson for being here and look forward to being 
able to work to find some kind of common ground here that makes 
sense to people in rural America and those that do produce for 
us the safest, most abundant, and affordable supply of food and 
fiber in the world.
    So I will now turn to our Ranking Member, Senator 
Chambliss, for his opening statement.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thank you very much, Madam Chairman, and 
let me just say at the outset that after what your Razorbacks 
did to my Bull Dogs last Saturday----
    Chairman Lincoln. I was not going to mention that. You 
brought that up.
    Senator Chambliss. I have every reason to be upset with 
everybody in Arkansas.
    [Laughter.]
    Senator Chambliss. Since we do not play you all for two 
more years, it is going to take me two years to get over it.
    [Laughter.]
    Chairman Lincoln. We went pretty easy on you.
    Senator Chambliss. If you did not care who won, it was an 
exciting football game.
    Thanks for your comments and likewise you are a great 
partner here and with all the complex and difficult issues that 
face American agriculture, we have had a great working 
relationship and we are continuing down the road on this very 
sensitive issue, and for that I thank you for holding this 
hearing on this important and timely topic.
    Administrator Jackson, I thank you for coming before the 
Committee today. I realize that your time obviously is very 
valuable.
    I hope that I, along with my colleagues on both sides of 
the aisle and from every region of the country, can impress 
upon you just how serious our concerns are with the 
Environmental Protection Agency. Really all of rural America is 
concerned.
    As we open this discussion, let me say from the outset that 
I am not here to complain that agriculture is being unfairly or 
is being picked on or unfairly targeted by this Administration. 
However, I do think it is fair to say that we are here to talk 
about an approach to government regulation and several specific 
regulations that will have a pivotal impact on the future of 
the agricultural sector in America.
    A few weeks ago, Secretary Vilsack unveiled two USDA 
reports that show that the U.S. agriculture sector is improving 
and exports are growing. After declining more than 20 percent 
in 2009, farm sector earnings have experienced a rapid rebound 
in 2010 and are forecasted to rise even higher by the end of 
this year.
    The secretary also announced that agricultural exports are 
projected to reach $107.5 billion with an $11 billion increase 
over this year. These figures make 2010 the second highest year 
on record. That is great news for agriculture. I wish it were 
true for the rest of our economy.
    But as we think about this news, the question we then ask 
is what impact are EPA's regulatory plans going to have on 
future opportunities for growth. Specifically, will the 
regulations help or hinder these opportunities and the jobs, 
investment, and income that come with them.
    Given the regulatory issues before us, particularly the one 
cited by the Chairman, I believe along with many of my 
colleagues around this table that the agency's plans will 
hinder growth in agriculture in rural America.
    By my count there are more than 20 different efforts 
underway at EPA that affect agriculture and the farmers, 
ranchers, foresters, agribusinesses and rural communities of 
this country.
    Let me just list a few of them for you. Clean Water Act 
permits for pesticide applications. Next April EPA will impose 
a completely unnecessary paperwork burden on pesticide users by 
requiring a national pollutant discharge elimination system 
permit for pesticide applications. This requirement will add 
zero protection for the environment.
    Under this framework, more than 5.6 million pesticide 
applications will need to be permitted because the agency 
refused to defend its well considered 30-year-old policy in 
this area.
    Next, atrazine. Last year EPA decided to re-review 
atrazine. This was shocking since there was no scientific 
reason for it, especially since EPA had finished a 
comprehensive review of atrazine in 2006 and is scheduled to 
begin the re-registration process in 2013. EPA's own Scientific 
Advisory Panel has questioned the agency's motive for a second 
review.
    Next, numeric nutrient criteria. EPA's plan to set criteria 
for Florida's streams, rivers, and lakes is astonishingly 
expensive. In fact, the estimated initial cost just for 
agriculture is anywhere from $855 million to more than $3 
billion. This effort has been highly criticized for lack of 
correlation between the proposed criteria and the desired 
condition of these waters.
    But this is not just about Florida. This precedent set in 
Florida will affect the entire country. EPA has one chance to 
get it right.
    Next, CAFOs. EPA will begin to expand the Concentrated 
Animal Feeding Operation program next summer to require permits 
for all small and medium operations and to develop more 
aggressive nutrient management plans for all sizes of farms. 
This expansion is due to a settlement agreement with an 
environmental litigant which is a very poor way to set policy 
and is based upon a questionable interpretation of the law.
    Next, greenhouse gas regulations. The EPA suite of 
regulations would drive up costs for all energy users, bring 
large and small agribusinesses into a permitting program, and 
within a few years require large farms to obtain air permits.
    In addition, EPA's treatment of biomass emissions in its 
tailoring rule contradicts long-standing US policy. The 
uncertainty created by this rule is sidelining investment in 
biomass power something this Administration has made a priority 
in its green energy agenda--and threatening the viability of 
existing biomass energy production facilities.
    Next, risk assessment for dioxin. Exposure to dioxin has 
declined by 90 percent over the past two decades. This is a 
victory. Unbelievably at the very same time, however, EPA is 
contemplating setting a standard lower than every other 
developed nation. This would mean that no food, which is the 
primary source of dioxin exposure, would be safe. This defies 
rational science and all common sense.
    Why does all of this matter? Because we need American 
agriculture not just to feed Americans but to feed the world. 
The Food and Agriculture Organization, FAO, recently projected 
the world population will rise from 6.8 billion today to 9.1 
billion people by 2050.
    In short, the world will need to produce 70 percent more 
food to feed an additional 2.3 billion people. Nearly all of 
the population growth will occur in developing countries. At 
the same time, food producing nations like the United States 
will need to take a leadership role in combating poverty and 
hunger using scarce natural resources more efficiently and 
adapting to a changing climate.
    While the FAO is cautiously optimistic about the world's 
potential to feed itself by 2050, I seriously question whether 
anyone has made the connection between the central role that 
America must play to solve this challenge and the regulations 
that EPA has put forth for agriculture, the very industry that 
will be responsible for the solution.
    No one disputes the need or desire for clean air and water, 
bountiful habitat, and healthy landscapes. We all believe in 
that. But at some point, which I believe we are getting 
dangerously close to, regulatory burdens on farmers and 
ranchers will hinder rather than help them become better 
stewards of the land and more bountiful producers of food, 
fiber, and fuel.
    Administrator Jackson, you as the leader of EPA, are the 
one to make this connection along with Secretary Vilsack. It is 
you that must take this to your colleagues in the 
Administration and ask the hard questions about this approach 
to agriculture. I hope this hearing helps motivate you to do 
exactly that.
    In a spirit of cooperation, let me close with this final 
thought. These issues are not going away. They must be 
addressed in a reasonable manner. We have a choice. The 
agriculture community can fight regulation by regulation or we, 
Congress, the Administration, and the agricultural sector can 
work together on a sensible approach that harnesses the 
innovation, productive capability, and natural resource base of 
America to improve the future of our country and our neighbors 
around the world. It is my hope that this hearing will open the 
door to do just that.
    Thank you again, Madam Chairman, for holding this timely 
hearing, and I look forward to the Administrator's testimony.
    Chairman Lincoln. Thank you. I appreciate your closing 
comments, and in the good spirit of what we did on nutrition is 
a great opportunity in this Committee to work in a bipartisan 
way and with the Administration and the industry to really find 
those kind of common sense solutions to the problems that we 
might face. So I thank the Senator for reminding us where we 
have come from and where we have to go.
    We have two panels that we are anxious to hear from today. 
In the interest of time, any Senator I would hope that you all 
would, if you want to just submit your opening statements for 
the record, I know people are wanting to get out of town too so 
we will move on.
    We would like to welcome EPA Administrator Lisa Jackson. 
Before becoming EPS's Administrator, Ms. Jackson served as 
Chief of Staff to New Jersey Governor Jon Corzine and 
commissioner of the State's Department of Environmental 
Protection.
    Prior to joining DEP, she worked for 16 years as an 
employee of the U.S. EPA. She has been working tirelessly in 
the Gulf and I know that is certainly something of great 
importance to her as I believe you were born or raised in New 
Orleans so it is hometown territory for you and I know it is 
work that you hated to have to do but enjoyed being there to be 
able to see all the things that you could accomplish in 
reviving the Gulf.
    Administrator Jackson, we look forward to your remarks. 
Your written testimony will be submitted for the record and I 
ask that you keep your remarks hopefully to as close to five 
minutes as you can. Thank you.

    STATEMENT OF HON. LISA P. JACKSON, ADMINISTRATOR, U.S. 
        ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, DC

    Ms. Jackson. Thank you.
    Chairwoman Lincoln, Ranking Member Chambliss, members of 
the Committee, thank you very much for inviting me to testify.
    I am pleased to talk with you about EPA's mission to 
protect human health and the environment and the interaction 
with the agriculture community. Farmers and ranchers are an 
essential part of the American economy. They provide us with 
food, fiber, and fuel. The agriculture community should be 
credited with taking significant steps to protect the 
environment while finding innovative ways to feed millions of 
people.
    I recognize that there are concerns in the agriculture 
community about EPA's activities. Two weeks ago I was in 
Americus, Georgia, where I heard directly from local farmers 
about the challenges they and their families face and how they 
are attempting to deal with environmental issues.
    The slim margins on which farmers operate, the inability to 
pass along the cost of environmental improvements, and their 
vulnerability in a difficult economy was obvious and a critical 
considerations in working with agriculture.
    At the same time that we are hearing concerns from farmers, 
they are also expressing their willingness to engage with us on 
environmental challenges. American farmers have made 
substantial contributions to protecting the environment from 
practices that reduce risk from pesticide use in fruit orchards 
and vegetable fields to conservation efforts to protect water 
quality in regions such as the Chesapeake Bay. While much has 
been accomplished, too much remains to be done to protect our 
air and water as the population and development increases.
    As EPA Administrator I made a commitment to protect the air 
we breathe, the water we drink and use to irrigate our land and 
to protect the land that is our heritage and our children's 
inheritance.
    I pledged to uphold the law, use the best available 
science, and be transparent in our decision-making at EPA. A 
recent example of EPA's commitment to those principles came 
during the RFS2 rule making. Congress directed EPA to conduct a 
life cycle analysis for biofuels. EPA's initial proposal in the 
spring of 2009 was based on science as we knew it at that time.
    We opened our analysis to comments from the public and 
industry as well as an independent science review, and I sent 
senior staff to Iowa so that they could meet with farmers and 
researchers.
    Based on the vast amount of new information received and 
analyzed, we came to a substantially different conclusion than 
our initial proposal. Throughout that process we demonstrated 
our willingness to engage with the public to carry out our 
responsibilities, to make complex decisions under the law, and 
to ensure that we follow the current science.
    Taking the time to solicit ideas directly from farmers and 
listening to their concerns is major priority for me. I have 
co-hosted a series of meetings with Secretary Vilsack at which 
we met with producers and their representatives from the 
commodity, livestock, and specialty crops sectors.
    These meetings were candid and wide-ranging conversations 
with farmers and ranchers where I heard their concerns 
firsthand. I also heard about the remarkable things they and 
their neighbors are doing across the country in large and small 
operations to protect our land, water, and air.
    As a product of what we learned in those meetings, I have 
asked my staff to initiate two important discussions with 
agricultural stakeholders.
    First, I am asking our Office of Air and Radiation to carry 
out an extensive effort to solicit information about the issues 
associated with PM10, the dust issue, and its implication for 
rural communities and agriculture before we make any proposal 
on this issue.
    Second, I am asking our Office of Enforcement and 
Compliance Assurance to convene a discussion with agricultural 
and other stakeholders to foster better understanding and 
communication around EPA's enforcement operations and to 
discuss options for increasing the ability of agriculture to 
protect the environment. By providing these opportunities, I 
hope to demonstrate EPA's commitment to engaging directly with 
the agriculture and rural communities.
    EPA has also been making direct and substantial investment 
in the farm communities' efforts to find and implement 
environmentally sound practices.
    During my time so far at EPA, the agency has provided 
approximately $190 million in grants in direct support for 
critical agricultural projects across the United States. Our 
investment is as diverse as the range of issues that farmers 
must grapple with.
    For instance, we have provided grants to states for work to 
protect Lake Champlain's watershed, to reduce insect resistance 
for crops in the southwest United States, to help farmers adapt 
variable rate technologies in Ohio.
    In many of these efforts, EPA funds have been used along 
with USDA funds such as EPA's seed grant in south Georgia which 
helped leverage a substantial investment from USDA to assist 
limited resource and disadvantaged farmers to implement best 
management practices.
    Admittedly EPA's financial resources are only one part of 
the larger picture of support. While in many places they are a 
catalyst and a complement to the much more significant 
resources that USDA brings to communities, the immense private 
investment by farmers and their communities are the major 
driver.
    If there is one message I want to send today, it is that I 
recognize that the most effective course for protecting our 
environment is an active partnership between EPA and USDA and 
farmers and their communities.
    We will continue to face complex and difficult issues in 
carrying out the responsibilities that Congress has given us. I 
am encouraged by my conversations with farmers that there is a 
path forward on the issues ahead. Just as important, my 
conversations with the agricultural community have reinforced 
my belief and commitment that a healthy farm economy and a 
health environment can and should go hand in hand.
    Thank you. I am pleased to answer your questions.
    [The prepared statement of Ms. Jackson can be found on page 
54 in the appendix.]
    Chairman Lincoln. Thank you so much, Administrator for your 
testimony. Just a few questions.
    In my opening statement I stated that it makes no sense for 
pesticide application to be subject to both FIFRA and the Clean 
Water Act. FIFRA takes into account environmental 
considerations so additional Clean Water Act regulation is 
certainly an unnecessary burden not only to applicators but 
also to state regulatory authorities. And States like Arkansas 
are underfunded and struggle to keep up with existing laws and 
regulations and do not need to spend their time enforcing 
regulations that do not improve the environment.
    Your agency is not scheduled to finish the general permit 
it is developing until December 2010. I have heard that it may 
be pushed back to January 2011. States are supposed to 
implement their permitting programs by April 2011.
    I am frankly amazed that your agency expects states to 
implement that general permit into law in a mere four months' 
time. Do you think it is reasonable for a state to implement, 
that it is going to be reasonable for a state to implement a 
complicated permitting system between January 2011 and April 
2011?
    I guess would you consider asking the Sixth Circuit to 
extend the compliance deadline beyond April 2011 giving states 
additional time to implement the permitting requirement; and if 
they cannot meet it, if states cannot meet it by April 2011 
deadline due to the lack of resources and the lack of time, 
what do you suggest that they do? What are you going to suggest 
to them that they do?
    And I guess how about applicators in our states that do not 
meet the deadline either. What are you going to recommend that 
they do?
    Ms. Jackson. Thank you, Chairman.
    From the beginning, EPA has worked to craft a proposed 
general permit with the states and with stakeholders that meet 
the court's direction but minimize the burden to states and to 
the regulated community.
    The idea of a general permit was, a general permit is 
probably the least intrusive regulatory method. I realize that 
a preference within the Ag community is no permit but the 
general permit was intended to be the least intrusive way of 
providing notification required through the court decision.
    We have worked quite closely with states. I am certainly 
not representing that we are there. The permit is out for 
comment. That is why we are in a comment period where that work 
continues.
    We will finalize it as expeditiously as possible and we 
will continue what has already begun which is extensive 
outreach that will morph into training. The states will be the 
ones to implement that permit, and we are very well aware of 
that fact.
    Chairman Lincoln. I would just say that we are at the end 
of September here, and the possibilities of being able to see 
that happen in that time frame become more and more bleak, and 
I would just consider that I think probably one of the most 
frustrating things to Americans right now is the lack of 
certainty and the lack of predictability coming out of 
Washington, and I would hate for this to be yet one more thing.
    If states are not capable of implementing that in that time 
frame, it is going to be very difficult for applicators and for 
the states to be able to meet some of those deadlines.
    So I hope that you will be prepared to provide the kind of 
guidance that is going to be needed to be there if, in fact, 
they cannot meet that. I would certainly suggest that we 
actually try to reach out and see if we cannot do something 
about a compliance deadline, moving that deadline to a more 
reasonable time.
    I have also been touring my State of Arkansas extensively 
this year, and recently I heard an up tick in farmers voicing 
their concerns about EPA coming on to their farms to inspect 
their poultry operations.
    I also know that EPA has identified the Illinois River 
watershed in Oklahoma and Arkansas as a priority watershed. I 
know that you are doing I think two watersheds in each of the 
regional districts.
    It is my understanding that this could lead to enforcement 
measures against Arkansas poultry and cattle farms. As I 
mentioned in my opening statement, my farmers do not get paid 
full-time to sit around and think about environmental 
compliance.
    What efforts has your agency made to reach out to farmers 
in this watershed regarding their compliance efforts? And you 
know if it is true that EPA is starting to come on to their 
farms, I think that EPA has sent out something to each and 
every poultry farm, some sort of guidance document to help them 
through this process.
    Does EPA have a document that can help farmers in the 
Illinois watershed understand, what is expected of them by you 
all at the agency?
    Ms. Jackson. Thank you, Chairman.
    It is my hope and intention that they have a clear 
understanding of what EPA's compliance visits are meant to 
achieve. If that is not the case, then I am happy to work with 
you and your office to ensure that your constituents, that 
there is no mystery around compliance visits.
    Compliance visits do not assume nor do they presume nor do 
they necessarily result in any kind of an enforcement action. 
They are a visit which is intended to help farmers understand 
what their compliance obligations are under law.
    We have had some successful models in several watersheds. I 
am familiar with one in the Shenandoah watershed where we were 
very clear that we were going to conduct these visits. We try 
not to surprise people. We try to give them information ahead 
of time so that they will understand why we are there. But we 
also acknowledge that oftentimes working with the state or with 
elected officials is a good way to get information out to the 
community because there is a lack of trust there.
    Chairman Lincoln. I certainly know that you would want to 
say that you have tried. I guess the key here is for the 
uncertainty that exists and the concern that these farmers and 
poultry growers have about what kind of fines and repercussions 
and consequences they are going to suffer from that visit is 
enormous.
    I do not hear from them that they getting information. That 
is why I am asking if you are sending out that kind of 
information. I realize that you know you may think of this as 
just a visit. But to be honest with you, it is not something 
that is pleasurable for them to go through, not knowing what 
the consequences could be particularly in these economic times.
    I have seen some outrageous fines. I have seen some 
outrageous circumstances when you get a lot of people that 
normally sit behind a computer or from a regulatory standpoint 
coming out onto a farm or to a poultry growers operation and 
they are seeing things for the first time. It is enormously 
alarming to those farmers that you know they do not know what 
is going to happen, what is going to be the consequences nor 
have they been given any kind of heads up or information in 
terms of what the expectations are of them.
    So I hope that some of that information can be more 
forthcoming and I hope that there will be a greater partnership 
built in terms of those visits and what the expectations really 
are.
    Just one last issue I would like to raise. I have heard 
that EPA is providing two different interpretations of how it 
views dust and feathers emitted from a poultry house fan.
    One view is that it is a Clean Water Act discharge. The 
other view is that it is not. I would sure hope that EPA will 
clarify complications like these before they proceed.
    When a fan blows in a chicken house, if any of you all have 
been in one, I have been in many, there is a real difference. 
So I hope that we can see more clarification.
    It is truly the uncertainty and unpredictability that comes 
out of Washington that is going to fail us in trying to put our 
economy back on track and put people back to work if we do not 
provide a greater certainty to growers.
    So thank you. I will turn to the ranking member now for his 
questions.
    Senator Chambliss. Thank you, Madam Chairman. I certainly 
would associate myself with your remarks there. We have got to 
have some certainty in these regulations.
    Administrator Jackson, the Georgia Department of 
Agriculture requested a Section 18 emergency use exemption on 
the behalf of Georgia vegetable growers for the fungicide 
Manzate on March 18, 2010.
    The usual turnaround time for an emergency use exemption is 
50 days. The Georgia Department of Agriculture, the University 
of Georgia, George chemical distributors, and Georgia growers 
have provided EPA with all of the information needed to make a 
decision on that date.
    Can you give me a updated status on that and when we might 
expect the decision to be made?
    Ms. Jackson. Yes, sir, Senator.
    As I recall, I am trying to find my note as we speak but it 
is not happening. So let me do it from memory and I will get 
you more information if I can.
    The original information was certainly extensive but there 
were still safety risks. The concern was that there were still 
residual levels that did not comply with the law. And EPA did 
not believe that there was sufficient basis to grant the 
exemption.
    Now, I think that there is still an opportunity. We did not 
deny it but we did not grant it, and that was quite purposeful. 
The idea was that we believe there is still a way to work 
together to look at the risks and residue issues to try to find 
circumstances with the agricultural community in Georgia where 
there may be some opportunity for that exemption to be granted.
    That is a fairly common process, sir, is my understanding. 
There is a bit of back and forth in trying to find the right 
spot in-between these exemptions being granted. But the work 
continues.
    When I was in Georgia recently, we talked about the need to 
make sure that we are aggressively pursuing an alternative or a 
potentially approvable request.
    Senator Chambliss. Okay. Well, it has been six months. I 
just appreciate your folks staying in touch with our local 
folks on the ground in Georgia to make sure there is an 
opportunity to work together. We look forward to doing that but 
it needs to be moving forward.
    Ms. Jackson. Yes, sir, if I can just interrupt. My staffer 
found the note, and it says later this fall we expect some 
resolution.
    Senator Chambliss. In July EPA requested critical use 
applications for methyl bromide for 2013. In that request the 
agency announced it was appropriate at this time to consider a 
year in which the agency will stop requesting applications for 
critical use exemptions.
    Georgia growers have done an outstanding job transitioning 
away from methyl bromide. In fact, Dr. Stanley Culpepper from 
the University of Georgia Cooperative Extension Service tonight 
will receive EPA's Montreal Protocol Award for his work on 
methyl bromide alternatives.
    However, I have serious reservations about EPA's preference 
to stop requesting critical use exemptions in 2015. I would 
like to ask you to include the House and Senate Agriculture 
Committees in the agency's deliberations on this issue and get 
a commitment from you that you would be willing to do that.
    Ms. Jackson. To work with the Committees on these issues?
    Senator Chambliss. To incorporate the House and Senate Ag 
Committees in the deliberations on methyl bromide's 
discontinuance, on those exemptions.
    Ms. Jackson. Absolutely, sir, within any confines of the 
law we are happy to include both Committees. We would value 
your expertise and information and input on those issues.
    Senator Chambliss. Well, I would like for it to be stronger 
than that, Administrator Jackson. I mean you all have been 
doing some things off the cuff down there that have been 
delineated here this afternoon that are going to have a hugely 
negative impact on agriculture in America.
    What I would like to know is, are you telling us today that 
when it comes to methyl bromide and these exemptions that you 
are going to work with the House and Senate Ag Committees 
before any decisions are made in the future?
    Ms. Jackson. Yes, sir.
    Senator Chambliss. Very good.
    In the government's brief which was prepared in response to 
agriculture's petition for Supreme Court review of the National 
Cotton Council versus EPA case, the agency stated that it 
believed that the Sixth Circuit reached the wrong conclusion in 
that case and that EPA's rule was justified.
    I believe EPA made the wrong decision not to defend its 
rule and instead develop a general permit for pesticide 
applications. As you know, EPA plans to finalize the general 
permit by December of this year, and EPA and the states will 
begin enforcing it beginning in April of 2011.
    This is an extremely short period of time especially as it 
requires the agency and states to issue 38,000 new permits. If 
the agency will not change its position, I believe it needs to 
ask the court for more time, specifically for at least an 
additional year.
    Would your agency be willing to do that?
    Ms. Jackson. Sir, I cannot commit to that today. I think it 
is important that, right now it is important for folks to 
understand that EPA is working awfully hard with stakeholders 
to try to get compliance with the court's judgment and 
decision.
    If, as we move closer to the date, we decide we simply 
cannot get there, then so be it. But we have been working very 
hard with the permitting authorities, each of the states, to 
implement a general permit that is workable and that is a 
minimal additional burden to applicators who already have to 
get permits for these pesticides in many states. States run 
those permit programs.
    Senator Chambliss. Again just like with my previous 
question, I would hope that you would have an open dialogue 
between the agency and the Committees on both the House and 
Senate side on this issue because it again is just one of those 
critical issues for the cotton industry that is going to have a 
huge impact on the bottom line for our farmers and at the end 
of the day we want to have a quality product. We want to make 
sure that air and water is pure and clean. But we have got to 
have that certainty and that understanding between farmers, 
ranchers, and the EPA. And that means between the House Ag 
Committee and the Senate Ag
    Committee on issues like this.
    I would simply encourage you that if you want to have a 
desired resolution of all of these issues, you just stay in 
touch with us.
    Ms. Jackson. Thank you, sir.
    RM. Thank you, Madam Chairman.
    Chairman Lincoln. Senator Johanns.
    Senator Johanns. Madam Chair, thank you.
    Let me start out and just thank the chair for holding this 
hearing. I think we all feel it is a very important hearing.
    Administrator, I suspect that if you sat down with every 
Senator here today in anticipation of this hearing, they would 
tell you that they have received a letter from one or more farm 
groups in their state, to be blunt about it, attacking your 
agency. I have a letter here and they refer to what you are 
doing is a nonstop regulatory assault on agriculture. That is a 
direct quote.
    You see, there is a feeling out in the country that you 
walked in, the President walked in, and every idea for more 
regulation was dusted off and cut loose, and agriculture is 
under attack, and that is how people feel.
    I hear you say you were out there, and you have listened to 
farmers, and that you have been with Secretary Vilsack. I just 
would say to you it is one thing to listen; it is another thing 
to hear.
    It just seems like you pay lip service and then go on. Let 
me give you an example. A group of us, a group of Senators 
wrote you a letter, and let me quote for you a piece of federal 
law. It says this.
    ``The Administrator,'' that being you, ``shall conduct 
continuing evaluation of potential loss or shifts of employment 
which may result from the administration or enforcement of the 
provision of this chapter and applicable implementation plans 
including, where appropriate, investigating threatened plant 
closures or reductions in employment allegedly resulting from 
such administration or enforcement.'' Unquote. It comes right 
out of the Clean Air Act.
    So our question to you was are you doing that, and your 
response to us, and it is a longer response but there are three 
sections that jump right out at me.
    Again I am quoting from your letter. Quote. ``EPA has not 
interpreted Section 321 to require EPA to conduct employment 
investigations in taking regulatory actions. Secondly, EPA has 
not conducted a Section 321 investigation of its greenhouse gas 
actions. Third, we are not undertaking a Section 321 analysis 
of PSD tailoring rule.''
    Now, how does Congress get more clear with you? ``Shall'' 
seems to be quite obvious to me. You know we debate these laws. 
We battle each other. We fight these things out. We finally get 
a law passed, and it is like nobody is paying any attention. 
You are just kind of out there doing your thing, whatever your 
thing of the day is.
    But here is the point I want to make to you. You are 
hammering the little guy. The big guy that can get capital and 
loans and access that will somehow find a way to deal with what 
you are requiring even thought it is enormously onerous. And 
even when you exempt or we exempt the smaller operator, they 
still feel the ripple effects of what you are doing.
    And you are just causing agriculture to consolidate more 
and more and more at a time when quite honestly that is the 
last thing we need is more consolidation in agriculture.
    So my question to you is this. When you have such a clear 
direction from Congress as you have got in Section 321, how 
could you possibly reach a conclusion that an employment 
analysis does not need to be done on something so important, so 
fundamental, so job impacting as what you are doing in this 
area? How can you ignore that?
    Ms. Jackson. Senator, the concern in the countryside that I 
have heard when I have gone out either with the Secretary here 
in Washington or gone out myself is that EPA somehow has it in 
for the agriculture sector.
    My assurance is that we have nothing of the kind. I have no 
personal agenda. I believe that we cannot be a strong country 
without a strong agricultural sector, that we cannot be 
prosperous if we cannot feed ourselves.
    From an environmental perspective, importing food with the 
huge carbon footprint that means is much less preferable than 
being able to look at food miles and get our food locally, 
nutritious homegrown food.
    So first I just want to get it because it is so important 
to Americans to understand that any belief that there is an 
agenda that somehow targets that sector would be the furthest 
thing from who I am, what my priority is as EPA Administrator.
    I did check because I have seen the allegations. The year 
before I became Administrator EPA put out about 120, somewhere 
between 120, 125 regulations. Last year we did 94.
    So there is no huge blowup in the number of regulations but 
there is a huge regulatory backlog, much of it driven by court 
cases which compel the agency to follow the law. I took an oath 
to follow the laws of the land.
    With respect to economic analysis of our rule making, one 
of those 94 regulation was the tailoring rule which 
specifically exempts agriculture and small businesses from 
having to face any greenhouse gas regulation until at least 
2016 when it is my fervent hope that by then there will be 
legislation to govern those issues.
    It was an attempt to give further assurance to those 
sectors that they are not where we are looking for greenhouse 
gas reductions. That being said, any rule we do has a full 
regulatory impact analysis associated with it, and part of my 
response to that letter I believe, I do not have to right in 
front of me, references the fact that we take very seriously 
our responsibility to put forth costs, benefits, and many of 
our rules, we do our own review, and then we have independent 
review at the White House, and then we go on to the public 
comment and solicit further information.
    I guess I want to end where I began which is that EPA 
understands that we can have a clean and healthy environment. 
We are working against ourselves if, at the end of the day, 
that means that we are individually harming the agriculture 
sector. It is not our intention.
    Chairman Lincoln. Senator Conrad.
    Senator Conrad. Well, I am going to start with a different 
message. My message is thank you, thank you very much for what 
you have just done in North Dakota to change the sulfate 
standard in the Upper Sheyenne to allow greater discharges of 
water to try to prevent an uncontrolled release of water from 
Devil Lake. It is very significant what you and your agency did 
to change the standard of 450 parts per million of sulfate to 
750 in the Upper Sheyenne.
    We have this situation in North Dakota that is unlike 
anything anywhere else in the country. We have a lake called 
Devil Lake and the lake is now three times the size of the 
District of Columbia. It has gone up nearly 30 feet in the last 
17 years.
    The Federal Government also at the end of this year spent 
$900 million dealing with this crisis. $900 million in my State 
is a lot of money. We have raised dikes. We have raised roads. 
We have taken a whole series of steps to try to deal with this 
crisis.
    We have an outlet running 250 CFS to try to relieve 
pressure on that lake. We had a town that is about to be 
engulfed. The town of Minnewaukan.
    I had federal officials a number of years ago come out and 
say why did they build the town so close to the lake? Well, 
they were actually referencing the high school. Why did they 
build it so close? When they built it, it was eight miles from 
the lake.
    This is the most incredible thing happening anywhere in the 
country with a runaway lake. We are very appreciative that you 
have changed the standard in a reasonable way to protect 
health, to protect safety. And at the same time recognize there 
is a much bigger threat to the environment if we have an 
uncontrolled release out of the east end of the lake rather 
than to have controlled releases out of the west end because 
the water quality on the east end of the lake is five times 
worse than the water quality in the west end.
    It is a very unusual lake. It has a flow to it. The water 
comes in the northwest and the lake flows east. And as it flows 
east, it picks up sulfates.
    So if we are going to reduce the risk of uncontrolled 
release, and now we are within six feet of an uncontrolled 
release, it is imperative that we move water and move more of 
it. We are very appreciative that you and your agency 
recognized that fact and changed the standard. That sent an 
important signal.
    We now need to go to the next step and adjust standards in 
the Lower Sheyenne, and we are hopeful that we can make that 
case in as persuasive a way as we did on the Upper Sheyenne.
    Let me go to an issue that had been raised by my farmers, 
and it is the number one issue with EPA in my State other than 
Devil Lake. That is the question of the oil spill control issue 
with aboveground storage, below ground storage. And producers 
in my State are very concerned. I just had a Farmers Union fly 
in. This was the number one issue on their list.
    One of my concerns was the requirement that a professional 
engineer must certified an oil spill plan. Is there a 
possibility that could be adjusted so that if they are 
following the basic design standards provided by the Extension 
Service and/or the Natural Resources Conservation Service, that 
that would be acceptable without having an engineer certify it?
    I raised this because, number one, it costs a lot of money 
to get an engineer. Number two, in my State it is very hard to 
find additional engineering time because of the oil boom that 
is going on in North Dakota. So farmers are deeply concerned, 
number one, about the cost. Number two, how are they going to 
get an engineering firm to come and do certification of a plan 
on their property when they are completely overwhelmed with the 
demands of the oil industry?
    Ms. Jackson. Sir, I am happy to look into the specifics. 
Those are under the SPCC rule making I believe.
    Senator Conrad. That is correct.
    Ms. Jackson. And as you know, we right now I believe have 
two rules out there, one that extends the compliance date, and 
that is probably shortly going to be finalized because we are 
out for comment and we need to finalize that rule.
    That was an intention to work with the industry within the 
confines of, of course, the other imperative which is we have 
to be, prevention is extraordinarily important when it comes to 
oil. I like Thad Allen's remark that nothing good happens after 
oil hits the water. After that, everything is really just 
trying to minimize bad. So we need to balance that. But I think 
that extension is intended to give us time to deal with some of 
these issues on implementation.
    I am not sure if, as written, the regs would preclude your 
suggestion, but I am happy to work with you.
    Senator Conrad. I would be very interested to pursue that.
    Second, just quickly if I could, is there anyway for EPA to 
more accurately identify which producers are required to comply 
by giving mapping areas where waters of the United States are 
likely to be impacted or those places where they are unlikely 
to be impacted? It seems like a common sense measure that there 
might be some broad guidance given as to those places that are 
especially vulnerable and those places that have very low risk 
of movement into waterways.
    Ms. Jackson. I am happy to work with your office of that 
suggestion, sir.
    Senator Conrad. A final if I could, the recommendation came 
back from my farmers that the EPA take advantage of each states 
cooperative extension service by working with them to design an 
implementation and outreach strategy.
    Cooperative extension in my State, and I think it is true 
of almost all rural states, is out there in every county, have 
an ongoing relationship with producers, and an education effort 
I think would be enormously beneficial. Also kind of lower the 
heat and the temperature on this issue.
    Ms. Jackson. Thank you for that suggestion. We are happy to 
incorporate that. That is a great idea. And, Senator, thank you 
for your leadership on Devil Lake in particular.
    Senator Conrad. It is absolutely the most incredible 
experience that we have had, this lake that just keeps going up 
and up. We know in 4,000 years of history three times it has 
had an uncontrolled release, only in those days very sparsely 
populated. If we have an uncontrolled release now out of the 
east side, it will be an unmitigated disaster.
    Chairman Lincoln. Thank you, Senator Conrad.
    In Senator Nelson's absence, we go to Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair, and 
welcome Administrator Jackson. I think I am one of the few 
members on the Committee that also serves on the Environment 
and Public Works Committee so we have done work together 
before, and I appreciate your hard work and candid nature. I 
also appreciate some of the work you did down in the Gulf 
during the oil spill. Thank you for that.
    Speaking of oil, a number of us had a meeting with you, and 
I am glad you came to it. That was good you were there to talk 
about the ethanol blend and the delays there. I just want say 
we continue to be concerned. I know that EPA will soon be ready 
to announce its decision on a waiver but I encourage you to 
make that decision as soon as possible.
    I see Senator Thune over there. A number of us have States 
where we are waiting on biofuels. As I said at that meeting, it 
is not a biofuel plant that blew up in the middle of a corn 
field. That is a good fuel and we think it is part of our 
energy future as we go forward.
    We can talk about that in a minute. The second thing is the 
dust issue which I think that has been covered so I am not 
going to go on about that.
    Another thing I wanted to raise is Senator Lugar and I are 
putting a bill out that looks at, I have been trying to figure 
out with all the good intentions how we keep cracking up 
against each other on some of these agriculture issues. I 
really think that sometimes people while they are trying to do 
good work at EPA do not think about the repercussions on our 
farmers and what it will mean, whether it is the dust issue, 
whether it is in the manure issue, whether it is the milk 
issue. There have been a number of things lately.
    I do not think it is because they are trying to hurt these 
farmers but I think it sometimes has that effect.
    So Senator Lugar and I came up with one idea. It will not 
solve everything. I know you have been getting feedback. But 
looking at the Science Advisory Board that is headed by a 
Minnesotan which is great but we realize that none of the 
people on there really have an agriculture background and there 
is something like 50 people on there.
    So we are putting together a bill that we call 
Representation for Farmers Act, to see if some of those people, 
we are suggesting three, could be appointed by the USDA so that 
we can try it to get some of that input from the agriculture 
community.
    We have run it by, it is supported by the Farmers Union, 
the Farm Bureau, the Corn Growers Association, the National 
Council of Farmer Coops, the National Milk Producers 
Federation, wheat growers, and we have just been doing it for 
three days.
    So I just want you to consider it and we would love to have 
your support. I think it could go a long way just on the front 
end. And I do not think it is going to solve everything. There 
is always going to be some tension but I think it is something 
that we will want to look at.
    I wanted to ask you about what is going on with the E-15. 
And do you anticipate an announcement very soon regarding at 
least the 2007 and newer vehicles and what is happening with 
the waivers?
    Ms. Jackson. Thank you, Senator, and I look forward to 
taking a look at your forthcoming legislation. So thank you.
    On E-15, as you know, we have been awaiting test results. 
The tests are done by our partners and friends over at the 
Department of Energy on a number of vehicles. We have most of 
the results back. They are being QA/QCed and reviewed by my 
staff. I am optimistic having seen the results so far for 2007 
and newer vehicles, Tier 2 vehicles essentially.
    We are waiting one last set of results. They are tear down 
test results. I spoke to Secretary Chu yesterday and he 
confirmed that he intends and believes they are on track to get 
us those results by September 30.
    Given that, we are prepared to render our waiver decision 
within two weeks following receipt of those tests, and in fact, 
have obviously been working on this issue for quite some time.
    Senator Klobuchar. I understand. And then there is going to 
be another series of tests after that or this is the first 
grouping of tests and then is there another grouping?
    Ms. Jackson. Correct. There are other tests that have 
already been begun but they are taking a bit longer on other 
vehicles. And through many discussions and the one you and I 
were both present at, it was decided that one of the things 
that would help the industry and the petitioner would be to get 
at least a decision on that which we had complete data for.
    So for 2007 these are really the tier two vehicles but the 
shorthand is 2007 and later. The brief was that we should get 
the information we have and make a decision there.
    There are also other issues that will affect ethanol and E-
15. To the extent that they touch EPA, we have been 
coordinating those. Some of them do not affect EPA at all.
    Senator Klobuchar. Okay. Just again I want to urge as we 
did at that meeting, the sooner we can go forward with this the 
better. I just think the science is on our side on this end.
    I am also concerned about various labels. I have said this. 
We just have to make sure that we do this as quickly as 
possible.
    Another thing. The EPA recently announced it would exempt 
dairy farmers from the Spill Prevention, Control and 
Countermeasures Act. I have cosponsored legislation to make 
sure that this policy is put into place as soon as possible. 
What is the status of implementing EPA's decision to exempt 
dairy farmers from this law that was intended to prevent oil 
spills?
    I do not mean to keep bringing up oil spills but I will 
just do it.
    Ms. Jackson. It is quite all right. The exemption for milk, 
for containers, is expected to be completed by February but the 
news is that the containers would be regulated come November of 
this year unless we extended the deadline. That extension will 
likely be final in mid October. So within weeks.
    So they will not be regulated and then the exemption, the 
full exemption for milk will be following in February.
    Senator Klobuchar. I am running out of time so I am just 
going to put on the record some of the questions that I have on 
atrazine as well as the boiler MACT rule. There is concern, a 
lot of concern about that in my State and some of the other 
things. Thank you very much.
    Ms. Jackson. Thank you very much, Senator.
    Chairman Lincoln. Thank you, Senator Klobuchar.
    Senator Stabenow.
    Senator Stabenow. Thank you, Madam Chair, and welcome, 
Administrator Jackson.
    Let me first say I also thank you for joining us in a very 
tragic situation with the Kalamazoo River with the oil spill 
that occurred a while ago and I appreciate your willingness to 
come out as quickly as you did and the efforts that are going 
on are very important that we make sure this is cleaned up as 
quickly as possible and does not happen again.
    As a preface to my question, I have been involved in 
agriculture committees for a long time and have been working on 
pesticide issues actually a long time. I would urge you to 
really take the time necessary to bring all parties to the 
table to work out a balanced approach going forward on this.
    When I was in the statehouse, I led an effort that took 
about a year to bring all the players together from farmers and 
environmentalists and agricultural business community. 
Everybody. We had everybody.
    It took a while but we came up with something that made 
sense and it was science-based and it was something in the end 
that was embraced by everyone to go forward because it was 
certainty because it was science-based but it was also 
addressing the broader goals and so on.
    I would strongly urge you to take whatever time is 
necessary to do that because this is an incredibly important 
and impactful issue for us in agriculture.
    On to my questions. When we look at a state like mine that 
has great diversity of crops, more diversity of crops than any 
other state except California, one that the prescriptive rule 
is not going to apply across the board to all of our different 
producers, I have concerns about what appears to be gray areas 
here in this permitting process. You have talked about some. 
But as I understand the rule that has been proposed in the 
Clean Water Act general permit, outside of the four areas 
specified, agriculture activities are not included.
    This would suggest that producers may be liable in that 
they would have to apply for an individual permits. As I am 
sure is the case in a lot of places, I know producers in 
Michigan that could apply pesticides which drift or by drift or 
accidental application could flow to waters of the United 
States such as our beautiful Great Lakes, that could happen.
    But while I imagine permitting for the hundreds of 
thousands of farms is not practical, is EPA planning to address 
any agricultural applications of pesticides not outlined in the 
general permit?
    Ms. Jackson. Let me make sure, Senator, I am answering your 
question. We do not cover terrestrial applications in the 
general permit. That is something that we worked very hard to 
ensure we were clear on.
    Senator Stabenow. Yes. Are you saying that is exempt, those 
agricultural practices?
    Ms. Jackson. Our proposal, we do not cover terrestrial 
applications of pesticides and does not cover spray drift, does 
not alter existing provisions in the Clean Water Act that 
provide exemptions for irrigation return flows or agricultural 
storm water runoff.
    So those are already features that we worked into our 
discussions on the general permit as it already stands. I think 
your question had more to do with other potential 
opportunities. There are some places where pesticides are 
applied over water, certain producers
    Senator Stabenow. Or near.
    Ms. Jackson. Or near, yes. If it is just drift issue, that 
is not covered. We would welcome the opportunity and we 
continue discussions with those. It is a fairly small number of 
cases where the question is they know that they apply to water 
and they are looking at the general permit and wondering if 
that can cover them.
    We probably are not ready yet to make a final 
determination. That is something that has come out during 
public comment but we welcome the opportunity to discuss it 
further.
    Senator Stabenow. Thank you. The Clean Water Act clearly 
states also in the definition of point source that agriculture 
storm water discharges and return flows from irrigated 
agriculture are excluded.
    How may this limit a producer's liability in regards to any 
type of permit?
    Ms. Jackson. So they are exempt activities under the Clean 
Water Act so they would not then be regulated activities under 
this permit, meaning that those activities would not require a 
permit as was proposed. I should caveat by saying we have a 
proposed permit. We do not have a final at this point.
    Senator Stabenow. Then if I might just quickly on 
integrated pest management plans which are so important. 
Michigan State University has been involved in working on many 
of those working with experts on techniques for decades.
    The plans are broad in scope. They cover more than just 
pesticide use. They also guide growers in reporting and record 
keeping. How does the EPA work with USDA to consider growers' 
work with integrated pest management plans and are such plans 
helpful to prevent future redundancy and paperwork?
    Ms. Jackson. Integrated pest management is a win-win for 
everyone. I mean pesticides cost money so growers love when 
they can minimize the use of pesticides, and they certainly do 
not to run it off into water because that is not working. The 
leadership that USDA has shown, the leadership that your State 
has shown, Senator, in running a wetlands, in thinking these 
issues through and in its regulatory program is very important 
to our work so thank you.
    Senator Stabenow. Thank you, Madam Chairman.
    Chairman Lincoln. Senator Thune.
    Senator Thune. Madam Administrator, thank you for being 
with us today.
    I want to associate myself with the comments that were made 
by the Senator from Nebraska. The Environmental Protection 
Agency has become public enemy number one of our farmers and 
ranchers, and over the August break I had the opportunity to 
meet with corn growers, wheat growers, soybean growers, cattle 
producers, pork producers. I am sure lots of others.
    But each of these groups have issues that were specific to 
their industry but they all have one common concern, and that 
was the overreaching EPA regulations and the harm that they are 
doing to their industry in the rural areas. That comes in lots 
of areas.
    It is greenhouse gas regulations. It is threats to regulate 
dust. The band of atrazine. It just seems like ag producers are 
in the cross hairs of the EPA.
    And in every case there are actions that drive up costs, 
drive down the profits of family farms and ranches. It just 
seems to me that we are losing our way when you have people in 
rural America asking the Federal Government not for help but 
just to stop hurting our rural communities.
    And at the same time we got decisions that could be helpful 
such as the E-15 issue which the Senator from Minnesota 
mentioned that remain undecided. I am pleased to hear that 
process is moving forward.
    But our ag produces are the best stewards of our land and 
of our environment. They go to work each day just not to make a 
living but to feed the world and to preserve the land for 
future generations.
    They are very frustrated, and I just want to read you a 
quote from the panel that will follow you from Mr. Rich 
Hillman, who is a rice, soybean, and wheat producer, and he 
states that farmers have never felt more challenged and more 
threatened in their livelihood than they do today from the 
continuous onslaught regulations and requirements from the EPA.
    He goes on to say, ``The EPA proposals are overwhelming to 
farmers and ranchers, and they are creating a cascade of costly 
requirements that are likely to drive individual farmers to the 
tipping point. In addition to driving up the cost of producing 
food, fiber, and fuel, these proposals highlight EPA's goal of 
controlling land use and water supplies. In many cases they 
will bring citizen suit enforcement and judicial review of 
individual farming practices.'' End quote.
    I will tell you that is what I heard. That is what I heard 
from the agricultural groups, individual produces all across 
South Dakota. I know at times that out here what seems to make 
sense just really does not in the rural areas of our country. I 
make that as an observation and express the frustration that I 
heard from individual produces during the August break.
    I do want to come back to the E-15 issue. As I heard it, we 
are looking at probably final data in the end of this month and 
then shortly after that, a couple of weeks perhaps, a decision 
on E-15. That is just with regard to 2007 vehicles and newer.
    How about 2001 to 2007 vehicles?
    Ms. Jackson. For 2001 to 2007 that testing is also ongoing. 
It is taking a bit longer. I believe those test results are due 
to begin by the end of the year, the calendar year. And EPA 
will be in a position to make a determination as we see the 
data obviously.
    But we will again strive to be expeditious in our decision 
making and review of the test data.
    Senator Thune. Just coming back to making two announcements 
on E-15, does not in some way two announcements actually create 
more consumer confusion on the status of E-15?
    Ms. Jackson. Certainly I guess that is one way to look at 
it but we were asked and have talked to the applicant who 
requested E-15 about whether some signal, we heard lots of 
concerns about their needing to be a signal that this was not 
going to be forbidden, this blend.
    As we started to get the data back, what we committed to 
and what we talked about was moving quickly in pieces 
admittedly but in an attempt to give that signal.
    Senator Thune. We are right now 10 months past the 
statutory deadline for a decision on that. The 2007 and newer 
vehicles decision seems to me again that when you create this 
sort of a bifurcated approach to this that you in some respects 
create even more confrontation than maybe perhaps already 
exists.
    But let me ask you with regard to the Department of 
Energy's testing on E-15. Are you aware of any driveability or 
parts compatibility issues with 2001 and new vehicles that are 
directly related to the use of E-15?
    Ms. Jackson. Sir, I am not aware of them but we have not 
received that information so that probably is not a complete 
answer because we do not have the data.
    Senator Thune. Are you aware of any evidence that E-15 
would damage vehicles older than 2001? In other words, vehicles 
manufactured before 2001?
    Ms. Jackson. I am not personally aware of any data or any 
test that has actually been----
    Senator Thune. You are saying you do not think they are 
testing vehicles that are older than 2001?
    Ms. Jackson. I do not believe so, sir.
    Senator Thune. I hope we get this resolved as quickly as 
possible because this is one thing, and you were right about 
the signal. This is an important signal to the industry. It is 
important to agriculture to get this issue settled.
    It seems like--I visited Oak Ridge. I visited NREL. The 
testing has been going on for an awfully long time. It seems 
they would have more than adequate data to get this issue 
settled and I would hope that they would be able to at least 
for 2001 vehicles forward approve it, and hopefully soon so 
that we do not create even more uncertainty than we already 
have.
    I have another question, Madam Chair. I see my time has 
expired, that I can submit for the record. I will say one of 
the things again that it really concerned me about some of the 
things that are happening over at your agency, the more recent 
one of these is dust. There is a tremendous amount of concern 
about that proposed legislation as well which I got an earful 
about while I was traveling during the month of August.
    Thank you, Madam Chair.
    Ms. Jackson. There is no proposed regulation. So perhaps we 
can get the word out there that EPA has proposed no regulation 
on dust and I committed earlier to doing some listening 
sessions before we even undertake such actions.
    Chairman Lincoln. Thank you.
    Senator Roberts.
    Senator Roberts. I am sorry. I missed that. Was that dust, 
there would be no regulations on dust?
    Ms. Jackson. What I said, Senator, in my statement is that 
there is no proposal on dust. We have a recommendation from one 
of our scientists----
    Senator Roberts. I wish you could stop it. We just had a 
heck of a dust storm out in Kansas.
    Ms. Jackson. I am sorry, sir.
    Senator Roberts. I think you used to call it rural fugitive 
dust. I will have more to say on that topic in just a minute.
    How are you doing?
    Ms. Jackson. I am fine. Thank you, sir. Sorry about the 
dust storm.
    Senator Roberts. Thank you for coming out to Kansas. 
Actually you sent a team of experts out to Kansas. We would 
have welcomed you to see that rather remarkable sight in 
Treece. I think you remember that. They did good work.
    And the State of Kansas stepping up and the citizens of 
Treece will soon be able to move where financially they could 
not before, and that was a terrible waste site. It was very 
dangerous and you did a good job on that and I want to thank 
you for that.
    Pretty much everything that needs to be said has been said 
especially Senator Johanns and Senator Thune, the Chairman, 
everybody here, also on the other side of the aisle.
    How many people know that Devil Lake is named after Senator 
Conrad.
    [Laughter.]
    Senator Roberts. It is the same thing as Senator Thune just 
said. I mean I cannot go to an agricultural meeting with any 
commodity group, any farm organization without them saying what 
on earth is going back there. It is usually a you-guys thing. 
What are you guys doing back there? Guys is not gender related.
    I say I am an us-guys. I am not a you-guy. And probably 8 
times out of 10, it comes down to the EPA and what we think is 
questionable in challenged science is doing in regards more to 
agriculture and our national economy and our national security 
because agriculture does affect that.
    88 percent of the land in Kansas is utilized for some form 
of agriculture production with 61 percent of the total in crop 
land, 34 percent pasture land, very similar to the Dakotas, 
Nebraska.
    Having an abundance of productive farm ground allows Kansas 
to rank in the top five nationally in the exports of wheat, 
grain, sorghum, sunflowers, live animals and meats, as well as 
hides and skins.
    One in five of our folks out there are involved in 
agriculture in one way or another. So that is really just 
stating the obvious, and I am stating the obvious again and 
again. I apologize for doing that. It is a terribly important 
and I think it is reflective of all of agriculture all across 
the country.
    Animal feeding operators, custom harvesters, chemical 
applicators, flour millers, even public health officials 
influence the environment. Some activities do actually create 
dust--I will come back to that in a minute--while others do use 
chemicals, pesticides, fertilizers to grow the food and fiber.
    It really keeps us from starvation and malnutrition around 
the world. I always put out in Southern Command there are 31 
nations down south. The average age of the folks down there 
which is 14. They are malnourished.
    If all of a sudden you have a disaster that hits like in 
Haiti and other places in the world, we have the ability and 
the farmer has the capability of this production miracle to 
immediately step forward and provide help and assistance.
    So the thing I would like to point out too is in order to 
turn a profit, they must protect the land and water. They do 
not have a choice. So it is not only that we all want to see 
clean air and clean water, that is the ``While I'' speech, 
while we want clean air and clean water, let me point out that 
this is not the way to do it in terms of the regulatory means 
that we do this.
    The farmer would never put the seed in the ground if he or 
she was not an optimist. But they are not as optimistic today 
about how they will comply with the laundry list of regulations 
that the Senator has just mentioned, Senator Thune.
    They are not as optimistic about how they can continue with 
this kind of situation. The list goes for everything from 
expanding the definition of waters of the United States to 
tightening the national ambient air quality standards for 
particulate matter to lowering the threshold for inorganic 
arsenic in the ground water to opening up an unscheduled review 
of atrazine.
    I have the head of the Kansas corn producers to speak to 
that, and he has a unique tale to tell about what happened 
after he stood before the Scientific Advisory Panel and 
probably even testifying before us, Madam Chairman.
    Are you still there? Great. I expect a couple ``Amens'' 
from you but any rate.
    [Laughter.]
    Senator Roberts. Very unusual circumstance and he will 
testify to that and it is a very worrisome thing about a 
chilling effect on people in any farm organization willing to 
talk about these things.
    Then you want to regulate the range burning on the Flint 
Hills which has been a tradition for many years and then to 
also regulating dioxin below naturally occurring background 
levels. All of that has Kansans concerned.
    It is the third time around for me. I was a bucket totter 
for my predecessor in the Congress, a staffer. I was 
administrative assistant, and finally he got so upset about 
this business back in the 1970s about rural fugitive dust and 
it became almost a laughing matter until farmers figured out 
that the EPA was serious.
    So I tried to track down the person who actually was in the 
business to promulgate, that is a great word, to promulgate in 
the Federal Register what was going to happen to rural fugitive 
dust. It took me three days.
    Finally I found this very nice lady in EPA who was from 
Massachusetts. Where else? I agreed with her because she said, 
``Do you realize how many gravel road you have out there in 
Kansas?'' I said, ``Yes, ma'am, I have been down about everyone 
of them.''
    ``Do your realize how much dust you are creating in regards 
to cattle trucks or grain trucks or pickups or whatever?'' 
``Yes, ma'am,'' I said, ``Do you realize what we have done in 
terms of conservation, the Great Plains conservation program, 
and all?'' I listed all the things we have done for the dirty 
30s.
    Finally I said, ``What do you want us to do? What is your 
suggestion? How can we get away from you putting the EPA sights 
on us out here for rural fugitive dust which I found rather 
unique?''
    She said, ``Well, why do you not just send out water trucks 
at 10 o'clock in the morning and then again at 3 o'clock in the 
afternoon and spray down those roads?'' Pause. ``It is a great 
idea. Could you provide the trucks and the water?'' Pause. 
``No.''
    That was sort of a standoff. Then it sort of, like other 
dust, settled. I do not think we ever got in the business of 
fining farmers or locking them up or whatever it is if they 
decided to go in a pickup to town down a gravel road.
    And then in the 1980s it was back. I do not know why you do 
these things. I mean you are supposed to be digital now. Throw 
all those files the way. They dug out the files and brought the 
thinking back. I do not know what happened when you all came in 
first.
    You probably said, ``Well, let us take a look at what we 
have done in the past and what we need to do in the future.'' 
Now by golly we have rural fugitive dust back again.
    Are you going to tell me we are going to have to get more 
water and water trucks and do that in the morning and the 
afternoon? One other thing.
    Navigable waters. Applicable to farm ponds where our 
critters go into cool off. We do not swim in those farm ponds. 
We do not drink any water out of those farm ponds. Most of the 
time they dry up, and no self-respecting duck would ever land 
on those farm ponds, and yet they could be declared navigable 
waters.
    Then that sort of faded away and it is back and it is like 
Lucy and Charlie Brown kicking the football, and I cannot 
remember now, I think in the little circle of what he said in 
the cartoon it was A-A-R-R-G-H-H! I do not know how to 
pronounce that. Some farmers do.
    But instead of picking up the football, I think it is sort 
of like an anvil down there, switching it, and boom he hits 
right into things like rural fugitive dust and navigable 
waters.
    Those are the ones that you can point to with some degree 
of, it is not levity. It is just to illustrate the point. But 
Jere White is here. He is from the Kansas Corn Growers. He has 
quite an experience to tell about atrazine. It actually takes 
the place of multiple pesticides, fungicides, rodenticides, 
whatever that it is kind of used for at levels that we think 
are safe. And he has really paid a price for it.
    So here is my suggestion.
    Chairman Lincoln. You need to wrap it up at this point.
    Senator Roberts. Yes, I am five minutes over but there is 
nobody here except you, Madam Chairman.
    [Laughter.]
    Senator Roberts. You did not recognize me first so you got 
to pay for it at the end.
    [Laughter.]
    Senator Roberts. You told me to come here off the floor and 
raise hell so that is what I am trying to do here.
    [Laughter.]
    Senator Roberts. Historically the Department of Agriculture 
and the Food and Drug Administration, the EPA, and Health and 
Human Services, even the Department of Labor, and yes, even the 
CIA--I used to be chairman of intelligence because of the 
importance of our food supply and safety of our food supply, et 
cetera, et cetera, they worked together on many projects to 
help protect our Nation's food supply, environmental quality, 
and the economic viability of production agriculture.
    How can the American public be sure that your agency is 
protecting scientific integrity through a risk-based approach 
rather than a precautionary stance to regulate dust, water, 
pesticides, chemicals?
    Is there any sort of cost benefit yardstick that all 
agencies should sort of agree on, and say, look, this is not 
the old testament. This is the new testament with all of the 
scientific means that we have today in a parts per trillion 
scientific world.
    I mean there is a little bit of something in everything. I 
am just wondering if all the agencies could not get together 
and say, look, to prevent the civil suits that are popping all 
over the countryside and which, as Mr. White can testify to and 
how he got dragged into it is rather amazing, but at any rate, 
could there not be some yardstick that we would all agree on 
and say, okay, from a stability standpoint instead of changing 
the rules every decade and coming back to rural fugitive dust 
for the fourth time when the administration changes next, it is 
regardless of whether it is Republican or Democrat, but at any 
rate can we not have some kind of a common measuring thing on 
it? This is what we are going to do and we are going to do it 
in a unified way and a regular way. Please.
    Administrator Jackson. At the risk of going further, why do 
I not simply answer, sir, by saying that, first, there are no 
fugitive dust rules. We have a scientific group, a Federal 
Advisory Committee, who have recommended particulate matter 
health-based standards.
    Senator Roberts. Can you send them out during harvest? That 
would be a good deal. Just send them out during harvest and 
they can drive the grain truck.
    Ms. Jackson. But what I committed to is that we are not 
going to propose any rules or change any rules without 
embarking on a process to work with the agricultural community. 
The rules are not for agriculture. Particulate matter comes out 
of trucks, comes out of diesel, and are a huge concern around 
ports. There are plenty areas in this country where PM10 
emissions are killers.
    Senator Roberts. I know the lawn mowers play a big part of 
that in the Kansas City area around August which is another 
problem but I am not going to get into that.
    What about a common yardstick? And the other thing is, 
certainly mentioned by the Chairman and the Ranking Member you 
know keep us posted and we can have a good dialogue but, man, 
if you could just get all these alphabet soup agencies together 
and say here is where we think we are. These are acceptable 
levels. That may change I mean if there is some terrible 
circumstance but it would certainly give us some stability.
    Ms. Jackson. Yes, sir. Senator, I am happy, one thing I 
take from this hearing is the need to stay close to this 
Committee. There were several requests that the Committee have 
much more information and consideration of what we are doing 
and we are happy to do that, and we have and I have worked very 
hard with Secretary Vilsack to ensure that the most important 
department with respect to these issues that we work very 
closely. I will redouble those efforts. I am happy to do that.
    Senator Roberts. Thank you.
    Ms. Jackson. Thank you, sir.
    Chairman Lincoln. Thank you, Senator Roberts.
    Thank you, Administrator Jackson. I will just reiterate 
what I think most of the members here have all expressed, and 
that is, when we go home to our district, we talk to the people 
that we represent. And I will be honest with you. I am going to 
make no apologies whatsoever for standing up for the hard-
working farm families across this country that really do work 
hard day in and day out to provide the safest and abundant and 
affordable supply of food and fiber but they do it with great 
passion, Madam Administrator.
    They do it with a great passion towards not only what they 
are doing but how they are doing it. It is with great care and 
great compassion for the land and for the environment, and I 
think often times they feel like when they hear things from 
Washington that they are not doing anything right or that they 
are constantly being asked to do things that are impossible.
    So I would just say if there is anything, we would like to 
ask that there is communication. I know they want to be 
included. I think they feel like that they have had no role in 
these settlement agreements, that EPA has worked with other 
groups, the NGOs, the environmental groups, and yet agriculture 
does not feel like they have had a seat at the table.
    So I would ask of you to engage with them. Try to put 
yourself in their shoes and better understand what their 
challenges are.
    I tour the state frequently, and whether it is talking to 
farmers or educators or anybody else, small businesses and 
others across our State, when they look at Washington, they say 
do not lower your expectations of us. We want to do the best 
that we can possibly do, whether it is teaching children or 
growing food and fiber, whether it is creating jobs or 
whatever. But give us goals that we can reach.
    I think that the frustration in so many ways is that they 
feel like that the goals and the parameters that are being sent 
for them are things they cannot reach.
    With the slim margins that they are already facing and the 
fact that day to day the variables that they face could cause 
them really to go out of business, and regulations and other 
things on top of that just exacerbate that problem.
    So we certainly ask you to work with us. It is great to 
work with Secretary Vilsack. He is a good man, and the 
Department of Agriculture is great.
    For those of us that are out there in the field with our 
constituents, it is so critical for them to have a seat at the 
table. We just really would like to ask you to hopefully help 
us make that happen.
    Thank you for joining us today. We appreciate it. We look 
forward to working with you.
    I would like to ask the witnesses on the second panel to 
come forward and be seated.
    Our panel includes Rich Hillman, who is the Vice President 
of the Arkansas Farm Bureau. Jay Vroom, who is President and 
Chief Executive Officer of Croplife America. And Jere White, 
who is the Executive Director of the Kansas Corn Growers 
Association.
    Senator Roberts will be back so do not worry, Mr. White, he 
is not going anywhere.
    Gentleman, your written testimonies will be submitted for 
the record so I would like to ask you to try to keep your 
remarks within that five minute rule. We are very grateful that 
you are here.
    It is my pleasure to welcome a fellow Arkansan and a good 
friend of mine, Rich Hillman, somebody I know who has had a 
pair of boots on and knows what it is like out there in the 
field.
    Mr. Hillman has been a rice, soybean, and wheat farmer 
since 1983 in Lonoke County, Arkansas. He served on the 
Arkansas Farm Bureau Board of Directors since 2001. He is a 
leader in the agriculture community in my home State, and we 
are fortunate that he is here with us today to share his 
insight into running a farming operation and the effects of EPA 
regulations. We are grateful to have you.
    I also want to thank Jay Vroom. It is a pleasure to have 
him also on our witness panel. Mr. Vroom is president and CEO 
of Croplife America where he has been since 1989. He has been a 
lifelong advocate of U.S. agribusiness trade associations.
    Mr. Vroom was born and raised on a grain and livestock farm 
in north central Illinois which he owns to this day. So we are 
grateful not only for Jay's understanding of the agribusiness 
trade arena but also his understanding of what goes on a farm 
on a day-to-day basis.
    It is also our pleasure to have with us today Jere White. 
Mr. White is a fifth generation livestock producer in Garnett, 
Kansas. He serves on several board of directors for various 
agricultural organizations and has been Executive Director of 
Kansas Corn since 1988.
    Today he provides testimony as chairman of the Triazine 
Network which represents atrazine and related triazines which 
farmers use of herbicides.
    So we will start with Mr. Hillman and go down the line. 
Senator Roberts will be back shortly.
    Thank you.

   STATEMENT OF RICH HILLMAN, VICE PRESIDENT, ARKANSAS FARM 
                   BUREAU, CARLISLE, ARKANSAS

    Mr. Hillman. Madam Chair and members of the Committee, my 
name is Rich Hillman. I am a fifth-generation rice, wheat, 
soybean the farmer from Carlisle, Arkansas. I am vice president 
of the Arkansas Farm Bureau and I am pleased to offer this 
testimony on behalf of our members across our great State.
    Let me begin by saying that farmers and ranchers have never 
felt more challenged and more threatened concerning their 
livelihood than they do today from the continuous onslaught of 
regulations and requirements from the Environmental Protection 
Agency. I hope my testimony today somehow represents the 
frustration that Arkansas farmers and ranchers are feeling.
    Over the past few decades agriculture has worked with USDA 
to make enormous strides in its environmental performance by 
adopting a range of practices and measures. We are proud of our 
accomplishment and believe that our overall environmental 
footprint is smaller today than it was 50 years ago. 
Incidentally in that same time period we have seen to double 
our production.
    Chairman Lincoln, as you stated in your opening comments, 
there are many regulatory issues facing farmers and ranchers 
that are very concerning. I would like to expand on a few.
    Currently in Arkansas all farmers and ranchers are required 
to have a restricted-use pesticide license. Chairman Lincoln, 
in your opening statement also mentioned FIFRA and the Clean 
Water Act and the current efforts of the EPA to require a 
pesticide general permit, an additional permit. This would mean 
not only additional expense but it would also place a burden on 
the farmer, rancher to apply for and to receive a permit every 
time we had to treat our crop. When insects attack, they 
usually come with a vengeance. In the matter of hours, they can 
destroy our postures and other crops.
    Madam Chairman, we greatly appreciate your leadership and 
work on this matter and we strongly support your legislation, 
Senate Bill 3735. I would like to take this opportunity to ask 
the other members of the Senate Agricultural Committee to join 
with you and Senator Chambliss in cosponsoring that Senate Bill 
3735. Agriculture needs your help now.
    In Arkansas for over 20 years, we have had a permitting 
program in place requiring all animal feeding operations with 
liquid manure systems to obtain no discharge permits. The Farm 
Bureau was a key supporter in the creation of this permitting 
process.
    EPA recently announced that the Illinois River watershed in 
Arkansas had been selected as one of its priority watersheds. 
This has resulted in two noticeable events. The first, the 
announcement of a TMDL study and increased inspections and 
enforcement of AFOs.
    At the same time EPA has insisted Arkansas State agencies 
start a process of developing a methodology to establish 
numerical standards for nutrients and developing a confined 
animal feeding operations CAFO permit.
    The potential to discharge language in CAFO was very vague 
and confusing. It does not clearly define who must apply. We 
believe this is intentional and it is an attempt to avoid the 
court's ruling that only those actual discharges must obtain a 
permit.
    Chairman Lincoln, as you well know poultry producers in 
Arkansas are struggling. Their profit margins are razor thin. 
They are good stewards of the land, and additional regulations 
add additional expenses which they can simply not afford.
    Spill prevention, control, and countermeasures is another 
thorn in agriculture's side. EPA wants us, farmers and 
ranchers, to build the retaining walls around fuel tanks in the 
middle of our fields and pastures. This would cost us thousands 
of dollars to mitigate what? EPA is attempting to address a 
problem that simply is not there.
    In closing, the farms and ranches across our Nation are 
privately held land that are coveted and cared for. They have 
provided not only a living for hundreds of thousands of farm 
families but have secured our Nation by feeding it.
    Year after year through floods, droughts, we have provided. 
Why would anyone want to keep us from doing that? Why would any 
agency try and change what we do best? And that is to feed this 
great Nation and the rest of the world.
    Madam Chairman, I commend you for hosting this hearing and 
for all of your work on behalf of agriculture in Arkansas and 
across this great country. I would be glad to entertain any 
questions at this time. Thank you.
    [The prepared statement of Mr. Hillman can be found on page 
47 in the appendix.]
    Chairman Lincoln. Thank you, Rich, and I know you are 
missing the first day of the conference in Arkansas so if you 
need me to write an excuse for you just see me after the 
hearing.
    Mr. Hillman. I would appreciate that. They are watching 
incidentally by internet so that put a little additional 
pressure on me but I thank you again.
    [Laughter.]
    Chairman Lincoln. We are glad you are here.
    Mr. Vroom.

STATEMENT OF JAY VROOM, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                CROPLIFE AMERICA, WASHINGTON, DC

    Mr. Vroom. Thank you, Madam Chairman, Mr. Roberts and other 
members of the Committee so much for convening this hearing to 
look at the entire landscape of environmental regulation facing 
the American farm families.
    I am indeed here today representing Croplife America, the 
trade association, as you indicated, that represents those 
companies that provide virtually all of the crop protection 
materials used by American farmers but I am also personally 
held accountable by another authority which is that group of 
family members who are at home in Illinois trying to harvest 
right now.
    In fact, I spoke with one of my brother-in-laws this 
morning who was gracious enough when I told him I was coming up 
here to visit with the Committee that he said, wait a minute, 
let me stop and shut the engine off. We need to talk. So I 
barely made it up here in time.
    So I do feel a personal responsibility to this as well as a 
professional one. I will speak about those regulatory matters, 
some of which have already been delved into quite extensively 
already here this afternoon with regard to crop protection 
materials and EPA's regulation of those materials as well as 
those pesticide materials that are used in non- agricultural 
activities. I will talk specifically about one of those as 
presented by our partner association, RISE.
    But as I have listened so far, the one thing that really 
has struck me is, oh, my goodness, is it any wonder that the 
American public is upset? The news media repeats this for us 
everyday, especially as we are anticipating the upcoming 
elections, that the American public are fed up and
    sick and tired of business as usual here Washington, DC.
    And as I think about it with respect to the things that we 
know best in the crop protection space and the interface with 
EPA, it really is a tale of three conflicting laws, three 
conflicting and out of touch and redundant federal agencies and 
the two offices within one of those federal agencies that just 
cannot quite get it right.
    We talk to those federal agencies a lot, of course, and 
with regard to, for instance, NPDS Clean Water Act issue that 
has already been talked about a good bit, we do think that we 
are at a point where the proposal that you and Senator 
Chambliss have made with regard to the Senate bill that Mr. 
Hillman just described and endorsed, and we did too, is timely 
because without that kind of assistance from Congress we fear 
that we do have a train wreck ahead of us.
    With all due respect to Administrator Jackson's explanation 
of the fact a few minutes ago, sitting in this chair, that the 
application of pesticides by farmers near water are not 
intended to be captured by this predatory regime and 
permitting, we all know that farmers farm near water.
    Most farmers hope they are near water and that water comes 
to help the crop grow. It is essential. So the NPDS regulatory 
and legal experts that we have retained as we have tried to 
work through this have told us with regard to decades of 
experience in the Clean Water Act and NPDS permitting, prior to 
this moment when it is now going to be applied to pesticides 
because of the Sixth Circuit decision, they have never seen an 
NPDS permit standstill or be adjusted to become more 
reasonable.
    It is always mission creep day after day after day. So it 
is clear to us that the American farmer should be concerned 
about this arriving on his or her doorstep, not only in terms 
of regulatory burden but also in terms of the fact that it 
creates so much additional liability, and farmers including my 
brother-in-law who reminded me again this morning, sitting on 
the combine, are concerned about that liability.
    The Endangered Species Act, another place where we need 
help from Congress. Can you pass a law perhaps or at least help 
provide more guidance and instruction to EPA and those other 
conflicting laws and regulatory agencies, the National Marine 
Fisheries Service and the Fish and Wildlife Service who keep 
just talking past each other.
    I just read a report a couple days ago about the spotted 
owl. We remember that our friends in forestry endured a 
terrific calamity decades ago when it was decided by a federal 
court that old growth harvesting needed to stop in order to 
protect the spotted owl, an endangered species.
    Yet this most recent report says that the populations of 
the spotted owl have continued to decline even though we have 
stopped harvesting in those old growth areas.
    The forestry industry is also an important customer of the 
pesticide industry and one that is going to be directly 
impacted by this NPDS permitting.
    Lastly, spray drift policy. Madam Chairman, you mentioned 
earlier in your opening remarks very serious concern and one 
where the agency just has not been able to focus on the clear 
and plain language in the statute of FIFRA that says that the 
risk standard is no unreasonable adverse effect.
    I would encourage you to guide, instruct the agency to make 
sure that when and if they do go about publishing a policy or 
regulation to govern spray drift that they always keep it 
connected to that risk standard that is in your statute.
    Thank you very much and I look forward to responding to 
your questions.
    [The prepared statement of Mr. Vroom can be found on page 
66 in the appendix.]
    Chairman Lincoln. Thank you.
    Mr. White.

   STATEMENT OF JERE WHITE, EXECUTIVE DIRECTOR, KANSAS CORN 
              GROWERS ASSOCIATION, BARNETT KANSAS

    Mr. White. Thank you, Madam Chairman, members of the 
Committee and Mr. Roberts for his attendance this afternoon.
    My name is Jere White, and I am the Executive Director of 
the Kansas Corn Growers Association and I do that role for 
Kansas Grain Sorghum as well. I appear today also as chairman 
of Triazine Network. The Triazine Network is not merely a 
coalition of agricultural groups but one that represents over 
30 crops grown in over 40 states. Those crops include corn, 
citrus, tree fruit, sorghum, vegetables, grapes, sugar cane, 
macadamia nuts. If it is grown, there is a chance that it is 
touched by our organization.
    Atrazine is a herbicide that American farmers have used for 
weed control for more than 50 years. It has been found to be 
safe by the governments of Great Britain, Australia, and many 
countries including the U.S. EPA.

    This morning I learned that the World Health Organization 
has adopted a new water quality standard, drinking water 
quality standard, and that new standard is over 33 times the 
current U.S. standard, 33 times.
    Atrazine is one of the most steady molecules on earth. On 
multiple occasions over the last decade, EPA has declared the 
product safe after rigorous scientific review using the highest 
quality data, and even as recently as last July.
    However, within weeks of last summer's positive report 
posted on their website, something happened, something that 
undermined all this deliberation, all this science.
    By the end of August of last year, a raft of spurious 
ecological epidemiology studies began to appear. They were 
promoted by trial attorneys, advanced by environmental groups 
with anti-agricultural agendas and their well-heeled PR 
advisors, and certainly picked up and ran by scare articles in 
the New York Times and also the Huffington Post.
    Trial lawyers joined forces with environmental activists 
and sought to regulate through the courts what science could 
not support within the EPA regulatory process way back in 2004.
    For instance, the EPA began to make their determination 
that atrazine was safe to continue to use in an interim 
registration decision that was published in 2003. The first 
trial lawyer lawsuit was filed in Illinois in 2004.
    But this is a different game now. Last fall they found the 
EPA very receptive to take the bate. Media frenzy prompted the 
EPA to announce the new comprehensive scientific re-review of 
atrazine with a break pace of four SAPs between November of 
2009 and just simply two weeks ago. Two more are scheduled 
quickly to follow in 2011.
    Amazingly EPA actually cited the media and activist reports 
for re-opening a scientific review process they just put to 
rest. EPA was not scheduled to review atrazine again until 2013 
as part of their scheduled review of all pesticides.
    In February an SAP considered the very studies EPA 
referenced to initiate this rush to re-review atrazine. 
Scientists at the SAP conclude that the overall quality of 
these studies was relatively, and certainly had the agency 
followed its own process of internal data evaluation prior to 
taking it to an SAP, it would have known that the studies were 
not useful in the regulatory process.
    This is just one way in which the agency's rushed re- 
review does not align with the processes that have up until now 
confirmed the EPA reliance on the best quality data available.
    Growers and associations which have provided comments in 
support of atrazine are now being targeted by the activist 
trial attorneys. Subpoenas are being issued for massive, 
expensive, and time-consuming production of records unrelated 
to any litigation.
    We are being harassed, even bullied, for daring to defend 
ourselves. The message is clear, if you stand up for atrazine 
you best be prepared to pay a price.
    I testified in support of atrazine at last week's SAP, 
sharing our concerns over trial attorney harassment of 
stakeholders as part of my comments. The very next day activist 
attorneys sought and obtained subpoenas against Kansas Corn, 
Kansas Grain Sorghum, and me personally.
    These subpoenas, not only do they intend to come into my 
offices on the 30th without any prior discussion whether my 
office might be available, they require me to be a Garnett, 
Kansas on the 30th at 10 o'clock as well as Olathe, Kansas on 
the 30th at 10 o'clock, depending on which hat I am wearing I 
guess that day. Fortunately I will be in the Ukraine on the 
30th at 10 o'clock.
    Most farmers live next to their fields. They raise their 
children in these environments; and if there was any real harm 
in atrazine, the American farmer would have been the first to 
notice and certainly the first to care.
    They value atrazine because it is effective and it is safe. 
That is why well over half of U.S. corn, two-thirds of sorghum, 
and about 90 percent of sugar cane is protected from weeds by 
the use of atrazine.
    For the farmer, however, atrazine is not a matter of 
politics. It is a matter of staying in business in what is 
still a rough economy.
    EPA estimated in 2006 that atrazine provides a $28 per acre 
benefit for corn, and while significant, we believe that number 
is actually much larger today.
    While environmental activists demonize atrazine, farmers 
know that atrazine enables an enormously productive benefit for 
the environment called conservation tillage. In 2008, for 
example, 64 percent of atrazine used in corn supported 
conservation agriculture practices that help sequester carbon, 
reduce fuel consumption, and improve a farm's overall carbon 
footprint as well as reduce soil erosion.
    I realize the members of this distinguished body have many 
important issues before you today. EPA's treatment of atrazine 
may not sound like a high priority but it is a matter of great 
importance to the farm economy.
    EPA at the highest levels needs to provide guidance to 
ensure that years of scientific review conducted under both 
Republican and Democratic administrations is not undermined. In 
addition, I believe our elected agricultural leaders must help 
EPA to understand the implications of their failure to do so.
    Thank you.
    [The prepared statement of Mr. White can be found on page 
75 in the appendix.]
    Chairman Lincoln. Thank all of you gentlemen for your 
testimony and we appreciate you coming before us today.
    Mr. Hillman, a few minutes ago you mentioned several 
concerns regarding the increased regulatory burden that farmers 
are facing these days and there is no doubt, as you mentioned, 
the margins are slim and really quite frankly as I mentioned so 
many times today the uncertainty and unpredictability of what 
you are up against whether it is regulation, weather, trade, 
price volatility, just a whole host of things.
    Of course, our State is diverse. In terms of farming 
operations, we have row crops in the east. We have forest in 
the south, and poultry and livestock throughout the State, and 
I know that all of our farmers all over the State are concerned 
about EPA's aggressive regulatory approach.
    What in your view are the major EPA regulatory issues 
facing the producers in Arkansas if you had to just pick the 
two top ones? I know we have mentioned a lot here today. But 
what would you say are those top two for Arkansas?
    Mr. Hillman. Chairman Lincoln, I think that you did mention 
that the whole State would be affected by any and all. But I 
think at the top of the list, two, CAFO, the poultry industry, 
if this is enacted, if their feathers fall out of their house, 
or the dust, even in the ditch, not even in water, they will be 
regulated like they have never been before, certainly northwest 
Arkansas and also southwest Arkansas, and I mentioned in my 
testimony that the profit margin that these folks are having 
right now is actually razor thin. An additional expense, and 
make no mistake about it, the expense is going to be there.
    The second would be the FIFRA. I think that would not only 
affect me as a row crop farmer, it would certainly affect the 
delta but it would affect the whole state as well.
    As I stated in my testimony, we currently already use and 
have and applying for and are trained for a restricted use 
license. We do that on the State level. Incidentally, we work 
well with all of our State agencies that oversee what we do for 
a living. This really would affect us. It would affect the 
whole State. You are talking about a whole new avenue of 
permitting.
    I know you said two but the spill prevention. You know for 
a smaller farmer having to go out there and build containment 
walls to the specs that the engineering firms deem necessary, I 
say again I do not know that there is a great problem with that 
whatsoever.
    So I guess that would be my comments.
    Chairman Lincoln. Well, I just note your second issue there 
on the FIFRA. I remember as a child my dad taking great care in 
terms of what applications he made and how he made them, 
studying for the testing to be able to get that permit, not 
because he just wanted to pass because he wanted to do the 
right thing.
    I think often times when we find people here, bureaucrats 
in the regulatory agencies who have not walked in those boots 
they do not really understand the sense of pride and dedication 
that farm families all across this country have in producing a 
good quality crop with great respect to the environment and 
doing all that they can.
    We appreciate that.
    Mr. Vroom, you have had some insightful testimony regarding 
the history and the background of pesticide regulation.
    This Committee does have direct jurisdiction over FIFRA. It 
has served its purpose for many years in protecting both the 
environment and applicators.
    As you have noted, new developments under the Endangered 
Species Act and the Clean Water Act along with proposed spray 
drip guidance are threatening our FIFRA effective regulatory 
scheme.
    What are some of the specific instances where delays in 
that Endangered Species Act biological opinions will prohibit 
producers who utilize crop protection products?
    And I have to say you also mentioned the aerial applicators 
better known as crop dusters. When I was in high school, I 
learned how to fly from a crop duster who served his country in 
Vietnam as a pilot. They do a tremendous job.
    If you have ever been out there in those fields, as we 
have, and you know what happens when those planes come in and 
out over the fields, thinking about spray drift and other 
things like that it boggles your mind to think that you are 
going to be able to do what it is that they wanted you to do.
    Mr. Vroom. Well, so I think specific to your question it is 
really in the holistic context these different laws that are 
not designed to work together and now you know we have had them 
on the books like the Endangered Species Act and FIFRA together 
for more than 35 years.
    For most of the time, there were not complex but extremist, 
activist organizations with very smart lawyers found favorable 
courthouses to go to and bring litigation that suddenly started 
to create this collision.
    Then out-of-court settlements that you have alluded to 
earlier where not all of the parties including our industry got 
to participate at the table for settlement discussions and you 
get outcomes that take valuable tools away from farmers which 
do not necessarily result in any benefit to the endangered 
species, a la, the spotted owl and old-growth timber that I 
mentioned earlier.
    So do we really want to look up and be 10 or 20 years down 
the road and have lost lots of important technology and still 
not benefiting those endangered species and suddenly 10 or 20 
years from now or maybe even sooner the United States of 
America is a net food importer.
    I have had the opportunity, because a lot of our member 
companies are headquartered in Europe, to be there a lot this 
year, and I have heard over and over again the European Union 
is a net 35 billion euro, that is more dollars than euros, food 
importer.
    Do we really want the United States of America to be there 
in a few years? And it is largely because of the precautionary 
principle of regulation of technology that has either been 
taken away from the European farmer or, in the case of 
biotechnology, has never been even made available to the 
European farmer.
    The American farmer is supplying some of that need through 
the production of soybeans that we export to the European Union 
but very little corn and corn products because again of that 
biotechnology restriction.
    So I think you need to really put it in that kind of 
context, and for those Americans who are not engaged in 
agriculture directly, in production agriculture, those of us 
need to understand that $100 billion plus that Senator 
Chambliss mentioned of agricultural exports do not just go 
directly into the pocket of the American farmer.
    It is generating enormously powerful, great number of jobs 
at the docks loading the ships, in plants manufacturing food to 
you know higher values for export, all matter of great 
employment that adds in ripple effect to our economy.
    Again I think it needs to be put into holistic context. I 
am not here to just kind of whine about you know EPA and FIFRA 
and pesticide regulation but to ask that you know the country 
think about this and the Senate in particular think about the 
ability to encourage EPA to work with us.
    I honestly believe that Administrator Jackson does want to 
do the right thing. She has very personal ties with 
agriculture. She has a lot on her plate as you mentioned with 
the oil spill in the Gulf of Mexico and many other important 
issues.
    So if she can be encouraged along with her team to work 
more closely with all us in the agriculture community as you 
have been suggesting on both sides of the aisle here this 
afternoon, I think we can get back to the table and make that 
kind of progress to preserve the technologies the American 
farmer needs and ensure that we continue to be leaders in the 
world's food and fiber and renewable production.
    Chairman Lincoln. That is great. I think finding common 
ground and working together is going to be the critical part of 
this, and you are exactly right. We need to work with the 
Administrator to reach that.
    Mr. White, we certainly appreciate your comments in the 
importance of atrazine to the production agriculture and 
certainly the vast body of scientific studies regarding that 
impact. It is critical for us to look at the science-based 
information that is there.
    If farmers lost their ability to use atrazine, how would it 
impact their farming operations, their costs, and those tilling 
practices that you mentioned? That would be I guess where I 
would want your input.
    Mr. White. Thank you, Madam Chairman.
    Really there are a couple of issues. There is a financial 
cost, and certainly if you use what I consider a conservative 
number by EPA, we are talking $28 an acre for corn. Less 
analysis has been done by the agency for grain sorghum and 
sugarcane.
    But beyond then when you look at the fact that atrazine is 
a produce that is used not necessarily very much today as a 
primary herbicide but it is an additive herbicide to a lot of 
the new technologies.
    So it has not been unusual at all when different companies 
introduce a new technology for controlling weeds, the next 
thing they do is introduce a new formulation that includes some 
atrazine in it, you know may be at a lower rate.
    So it is not just about the cost. It is about being able to 
control the weeds. It is about dealing with weed resistance 
issues with some of the more popular technologies that are out 
there.
    But the bigger question really, if there is anything bigger 
than atrazine and I have devoted a lot of my life the last 16 
years to this issue, is the fact that with the 50 years of safe 
use, with literally 6,000 plus studies being a part of the 
database that has led EPA to arrive to the safety determination 
they have today, if you cannot defend atrazine, what product is 
it that we will be able to use?
    What product is out there that has that body of science 
today or will have in the future that the companies will invest 
you know tens of billions of dollars to defend?
    Quite frankly if this process goes the way it is going and 
the award for stakeholders to step up and support it is to get 
beat down by trial attorneys, how many are going to be willing 
to do that in the future?
    Chairman Lincoln. That is exactly right. Thank you.
    Senator Roberts. Thank you, Madam Chairman. More especially 
in regards to this panel I thank the panel for taking the time. 
I know your time is very valuable.
    Pesticides like atrazine are subject to regular review. In 
fact, atrazine was re-registered in 2006, not scheduled for re-
review until 2013. That is under the banner of stability and 
predictability. Always something could happen why you could 
have a special advisory, pardon me, a Scientific Advisory Panel 
meeting.
    But in October of last year, EPA scheduled an unprecedented 
four Scientific Advisory Panel meetings. Madam Chairman, 
everything is an acronym here. Those are called SAPs. So there 
were four SAPs within 11 months.
    Since 2000, EPA reviews have included more than 16 
opportunities for public comment including six SAP meetings 
convened under the Federal Insecticide, Fungicide, and 
Rodenicide Act, FIFRA.
    I hate to admit this but I was a staffer for my predecessor 
in the House when FIFRA was first passed and he assigned me to 
go cover it one time because our agricultural assistant was 
sick.
    I attended the meeting. I had no idea what they were 
talking about and came back and told the congressmen, Keith 
Sebelius of the big First District of Kansas, do not ever 
assign me to that again, only to be assigned when I became a 
member of Congress to the subcommittee dealing with FIFRA and 
dealing with George Brown of California at that time who knew 
more about it than anybody, and I was ranking member.
    Chairman Lincoln. You were sapped there.
    Senator Roberts. Yes. This SAP suddenly became known as Mr. 
FIFRA, and people there can testify that is the case, Mr. Vroom 
especially.
    And it is amazing what you can get acquainted with if you 
just have good staff that print things in large letters on 
cards and get you to read them.
    Here is what the situation is with Jere White, who is a 
great friend and takes his time and effort to represent the 
Kansas Corn Growers.
    You stated now in your oral and written testimony that you 
have recently been served a subpoena and you believe it to be 
because, as a leader of the Kansas Corn Growers Association, 
Kansas Corn Commission, and the Kansas Grain Sorghum Producers 
Association, you have been an active participant in promoting 
the beneficial uses of atrazine.
    The Chairman just asked you the question. You just 
responded. You are here in Washington today at your expense. 
Because you testified before the EPA Scientific Advisory Panel 
on atrazine, the plaintiff's attorney from Holiday Shores 
Sanitary Distinct in the State of Illinois court case has asked 
for you to provide all correspondence, memoranda, notes, 
studies, and surveys to and from Jere White, Kansas Corn and 
Kansas Grain Sorghum Commission with regard to atrazine.
    I got this subpoena. I mean I did not get the subpoena but 
we may if this continues. I do not know the difference between 
appearing before a Scientific Advisory Panel then having some 
trial lawyer send you a subpoena from another state, a man who 
farms in one state then gets a subpoena from somebody from 
another state simply because he has the courage and the 
leadership to head up a farmer organization that stood before a 
Scientific Advisory Panel, what the heck is the difference 
between that and coming to the Congress to testify.
    Maybe you are going to get a subpoena because you came here 
and testified before us. Maybe the Chairman and I will get a 
subpoena. That is something to think about. I had not really 
thought about that until right now.
    Then if you look at this, Madam Chairman. Let me get back 
to this. This is what he is supposed to be deposed on in two 
separate places at the same time. I do not think they are going 
to go to the Ukraine. They might. This is more reflective of 
the Soviet Union than it is I think America.
    All correspondence to and from the relative parties, Kansas 
Corn Growers Association, et cetera, et cetera, et cetera. All 
e-mails from copying, blind copying, so on and so forth, a 
blind copying. Sending blind copies. If they are blind, how 
can--no, never mind.
    All internal memoranda and notes concerning atrazine. All 
studies relating to atrazine, conducted, authorized, sponsored 
or supervised by the Kansas Corn Growers; all raw data of 
atrazine studies, all notes, reports, analysis or other 
documents, any source of information, other documents relied 
upon, any surveys received from corn growers and/or farmers.
    Jere, hello, how you doing, e-mails. What are you doing on 
the atrazine thing, well, let me tell you what is happening on 
my farm. Sorry, got to put that in there.
    All reports, articles, other documents written by the 
Kansas Corn Growers, any source information or other documents, 
all documents related to presentation here today, all documents 
related to persons present in any presentation.
    I guess I am going to have to submit something. Any 
documents evidencing monetary contributions or compensation. 
Oh. Any documents relating to training, how you going to get 
anything, in contribution, well, never mind. I am not going to 
get into that.
    Any documents relating to training offered to Kansas Corn 
Growers Association, all phone logs, notes, other documents 
reflecting phone conversations, all calendar entries, reports.
    This just goes on and on and on even to the point if he 
talks to his secretary that could be deposed. My question is. 
You have given your life to the Kansas Corn Growers and you 
have got a great farming operation.
    If we are going to get into anything under the jurisdiction 
of FIFRA where somebody stands before a Scientific Advisory 
Panel and gives their point of view or this Committee or any 
other public place, how does this interaction and judicial 
activism affect those who may want to serve on farmer or 
commodity organizations, wheat growers, corn growers, cotton 
growers, sorghum growers, livestock association, pork 
producers?
    It seems to me this has a terrible chilling affect and some 
of it comes back to the fact that the EPA decided to have six 
SAPs in god knows how many days, giving them the opportunity 
then to say, okay, here is a straw man out here, pardon me, a 
corn man out here, a corn husk out here, that they can go 
after.
    I do not know how anybody wants to serve in a capacity of 
leadership within any farm organization if that is the case. 
This is a very bad situation.
    Mr. White. Well, Senator, they are certainly getting at our 
right to associate. I think it is a fundamental principle of 
what trade associations do. You know they are even getting at 
our right to associate within our office.
    As we discussed earlier, many times things that we put out 
for public consumption gets battered around just as it would in 
your office. Not all the ideas that are floated certainly rise 
to the top or sometimes you write back to your coworker what 
are you thinking but a lot of times today we write. We do not 
necessarily talk.
    All those discussions are part of the subpoena. The 
interaction with board members. It does. It gets at the very 
core of what we are able to do as we develop our policies, our 
positions, our thoughts, and I think it is intended to do that. 
I truly do.
    Can I say with certainty that I received these subpoenas 
because I was at the SAP last week? No, I do not know the 
thought process of the trial attorneys. But I can tell you that 
the Holiday Shores Sanitary District has no reason to think 
that I know anything about what goes on when they sell water to 
people in Holiday Shores. And I do not.
    But we are talking literally, I have been following the 
atrazine saga since 1994. Within the State of Kansas, I have 
been working on the atrazine issue since 1989. We are talking 
tens of thousands of documents, thousands of e- mails. We are 
talking things that are stuck away in the attic, in storage 
sheds, and things like that.
    A tremendous burden, and I know it is of no value. 
Admittedly, the trial attorneys may say, well, we do not know 
that. But again what right do they have to harass me. And the 
only reason they know I exist is because of the activities that 
you talked about.
    I stuck my head up out of the weeds and welcome to our 
world. I can tell you that you know if it is meant to 
intimidate, it had the wrong impact on me. I originally was not 
able to attend this hearing because of some conflicts. I did 
everything I could to work them out to be here after getting 
the subpoenas on Monday night. And if they are coming after me, 
as we might say Kansas occasionally, they need to bring a lunch 
because they are going to be at it a while.
    Senator Roberts. Madam Chairman, I think we have one heck 
of a problem on our hands or a challenge on our hands. This has 
the effect, a chilling effect as it relates to anybody that 
takes their time and effort to serve in leadership in behalf of 
any farmer organization, any commodity group or for that matter 
any group, and I would like to ask unanimous consent that these 
three subpoenas be made part of the record if that is 
appropriate.
    Chairman Lincoln. Without objection.
    [The information can be found on page 82 in the appendix.]
    Senator Roberts. I thank you for having the hearing. Jere, 
I am sorry you having to go through this and we will keep 
meeting and see if we can find some answer to this because this 
is simply not right and I appreciate your coming.
    Mr. White. Thank you, Senator.
    Mr. Vroom. Madam Chairman, could I add something? I think 
what Jere is working on with regard to bringing information 
forward, scientific and benefits information about atrazine, 
the same thing that is going on with regard to a number of 
other older compounds which are also important, all of which 
get regular review by EPA, and in the case of all of these like 
atrazine, like carbofuran, endosulfan, aldicarb and the list 
goes on.
    We have seen risk mitigation over the years, certainly the 
20 plus years that I have been with this association and yet 
farmers still depend on these and yet now in the last few 
months we have seen what we feel like are knee jerk and 
unexpected kind of new process or the departure from regular 
process procedures in threatening or forcing cancellation of 
some of these products.
    But also there is a chilling effect on our members who are 
inventing the newer products to go along with the older 
product. A great example is one of our members who has a methyl 
bromide replacement product, methyl iodide. EPA registered it 
several years ago and it is still waiting for regulatory 
approval in California.
    Extremist activist organizations have challenged that in 
California and now have petitioned EPA to rethink their 
registration of methyl iodide. So that has to make those member 
companies of ours who are investing $20-, $30 million a month, 
and usually it is upwards of $300 million cost before they ever 
get a new product to market, to wonder is it really worth the 
price of continuing to take the risk to innovate.
    So there is a chilling effect everywhere you look, and it 
is because we have lost our way with regard to regular order, 
the rule of law, science and transparency which the 
Administrator has said she supports and is committed to, and I 
believe with your help she will return to.
    Chairman Lincoln. There is no doubt that transparency and 
you know science-based evidence and science-based research is 
critical to what we need to see happen here. I think you are 
right that we just need to make sure we are continuing to move 
forward and to encourage that in a common sense way and to also 
ask everybody to be at the table when things are being decided.
    I think several things have come out of this and I am 
certainly appreciative to this panel and all of our witnesses 
today. One of the most important is that if we do not like 
importing oil we are really not going to like importing our 
food.
    And we have a lot of really hard working farm families and 
ranchers across the State, across this country that do a great 
job, and I think that you know so many of the other things that 
we have seen, whether it is what we can use, what the tools are 
that our agricultural producers have that allow them to be 
competitive and to continue to do what they do, taking those 
tools away from them not only unfortunately may shift us into 
requiring our dependence on imported food but it is importing 
food from countries that grow crops and products with the very 
things that we are outlawing now.
    So I think it is so important for us to work through these 
issues and I will look forward to working with all of you all 
as well as the EPA Administrator and others and certainly my 
colleagues to come up with some of these solutions so we can 
keep those hard-working farm families doing what we need to do 
best.
    So thank you all for being with us today.
    The record will remain open for five business days for 
members who could not attend to submit their questions in
    writing and that would mean that the Committee on 
Agriculture, Nutrition, and Forestry is adjourned.
    [Whereupon, at 5:06 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 23, 2010



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 66276.001

[GRAPHIC] [TIFF OMITTED] 66276.002

[GRAPHIC] [TIFF OMITTED] 66276.003

[GRAPHIC] [TIFF OMITTED] 66276.004

[GRAPHIC] [TIFF OMITTED] 66276.005

[GRAPHIC] [TIFF OMITTED] 66276.006

[GRAPHIC] [TIFF OMITTED] 66276.007

[GRAPHIC] [TIFF OMITTED] 66276.008

[GRAPHIC] [TIFF OMITTED] 66276.009

[GRAPHIC] [TIFF OMITTED] 66276.010

[GRAPHIC] [TIFF OMITTED] 66276.011

[GRAPHIC] [TIFF OMITTED] 66276.012

[GRAPHIC] [TIFF OMITTED] 66276.013

[GRAPHIC] [TIFF OMITTED] 66276.014

[GRAPHIC] [TIFF OMITTED] 66276.015

[GRAPHIC] [TIFF OMITTED] 66276.016

[GRAPHIC] [TIFF OMITTED] 66276.017

[GRAPHIC] [TIFF OMITTED] 66276.018

[GRAPHIC] [TIFF OMITTED] 66276.019

[GRAPHIC] [TIFF OMITTED] 66276.020

[GRAPHIC] [TIFF OMITTED] 66276.021

[GRAPHIC] [TIFF OMITTED] 66276.022

[GRAPHIC] [TIFF OMITTED] 66276.023

[GRAPHIC] [TIFF OMITTED] 66276.024

[GRAPHIC] [TIFF OMITTED] 66276.025

[GRAPHIC] [TIFF OMITTED] 66276.026

[GRAPHIC] [TIFF OMITTED] 66276.027

[GRAPHIC] [TIFF OMITTED] 66276.028

[GRAPHIC] [TIFF OMITTED] 66276.029

[GRAPHIC] [TIFF OMITTED] 66276.030

[GRAPHIC] [TIFF OMITTED] 66276.031

[GRAPHIC] [TIFF OMITTED] 66276.032

[GRAPHIC] [TIFF OMITTED] 66276.033

[GRAPHIC] [TIFF OMITTED] 66276.034

[GRAPHIC] [TIFF OMITTED] 66276.035


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 23, 2010



======================================================================

[GRAPHIC] [TIFF OMITTED] 66276.036

[GRAPHIC] [TIFF OMITTED] 66276.037

[GRAPHIC] [TIFF OMITTED] 66276.038

[GRAPHIC] [TIFF OMITTED] 66276.039

[GRAPHIC] [TIFF OMITTED] 66276.040

[GRAPHIC] [TIFF OMITTED] 66276.041

[GRAPHIC] [TIFF OMITTED] 66276.042

[GRAPHIC] [TIFF OMITTED] 66276.043

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           September 23, 2010



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 66276.044

[GRAPHIC] [TIFF OMITTED] 66276.045

[GRAPHIC] [TIFF OMITTED] 66276.046

[GRAPHIC] [TIFF OMITTED] 66276.047

[GRAPHIC] [TIFF OMITTED] 66276.048

[GRAPHIC] [TIFF OMITTED] 66276.049

[GRAPHIC] [TIFF OMITTED] 66276.050

[GRAPHIC] [TIFF OMITTED] 66276.051

[GRAPHIC] [TIFF OMITTED] 66276.052

[GRAPHIC] [TIFF OMITTED] 66276.053

[GRAPHIC] [TIFF OMITTED] 66276.054

[GRAPHIC] [TIFF OMITTED] 66276.055

[GRAPHIC] [TIFF OMITTED] 66276.056

[GRAPHIC] [TIFF OMITTED] 66276.057

[GRAPHIC] [TIFF OMITTED] 66276.058

[GRAPHIC] [TIFF OMITTED] 66276.059

[GRAPHIC] [TIFF OMITTED] 66276.062

[GRAPHIC] [TIFF OMITTED] 66276.063

[GRAPHIC] [TIFF OMITTED] 66276.064

[GRAPHIC] [TIFF OMITTED] 66276.065

[GRAPHIC] [TIFF OMITTED] 66276.066

[GRAPHIC] [TIFF OMITTED] 66276.067

[GRAPHIC] [TIFF OMITTED] 66276.068

[GRAPHIC] [TIFF OMITTED] 66276.069

[GRAPHIC] [TIFF OMITTED] 66276.070

[GRAPHIC] [TIFF OMITTED] 66276.071

[GRAPHIC] [TIFF OMITTED] 66276.072

[GRAPHIC] [TIFF OMITTED] 66276.073

[GRAPHIC] [TIFF OMITTED] 66276.074

[GRAPHIC] [TIFF OMITTED] 66276.075

[GRAPHIC] [TIFF OMITTED] 66276.076

[GRAPHIC] [TIFF OMITTED] 66276.077

[GRAPHIC] [TIFF OMITTED] 66276.078

[GRAPHIC] [TIFF OMITTED] 66276.079

[GRAPHIC] [TIFF OMITTED] 66276.080

[GRAPHIC] [TIFF OMITTED] 66276.081

[GRAPHIC] [TIFF OMITTED] 66276.082

[GRAPHIC] [TIFF OMITTED] 66276.083

[GRAPHIC] [TIFF OMITTED] 66276.084

[GRAPHIC] [TIFF OMITTED] 66276.085

[GRAPHIC] [TIFF OMITTED] 66276.086

[GRAPHIC] [TIFF OMITTED] 66276.087

[GRAPHIC] [TIFF OMITTED] 66276.088

[GRAPHIC] [TIFF OMITTED] 66276.089

[GRAPHIC] [TIFF OMITTED] 66276.090

[GRAPHIC] [TIFF OMITTED] 66276.091

[GRAPHIC] [TIFF OMITTED] 66276.092

[GRAPHIC] [TIFF OMITTED] 66276.093

[GRAPHIC] [TIFF OMITTED] 66276.094

[GRAPHIC] [TIFF OMITTED] 66276.095

[GRAPHIC] [TIFF OMITTED] 66276.096

[GRAPHIC] [TIFF OMITTED] 66276.097

[GRAPHIC] [TIFF OMITTED] 66276.098

[GRAPHIC] [TIFF OMITTED] 66276.099

[GRAPHIC] [TIFF OMITTED] 66276.100

[GRAPHIC] [TIFF OMITTED] 66276.101

[GRAPHIC] [TIFF OMITTED] 66276.060

[GRAPHIC] [TIFF OMITTED] 66276.061


</pre></body></html>
